Query

Reports

Utilities

Help

Log Out

1FILE, CLOSED

United States District Court
Eastern District of Wisconsin (Milwaukee)
CIVIL DOCKET FOR CASE #: 2:91-cv-01360-TTE
Smith v. USA, et al
Assigned to: Terence T Evans
Demand: $19,000
Case in other court: 0W1, :93- -02225
Cause: 42:1983 Civil Rights Act
Plaintiff
Barry Joe Smith

Date Filed: 12/19/1991
Date Terminated: 03/15/1993
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question
represented by Barry Joe Smith
3124 W Silver Spring Dr
Milwaukee, WI 53209
PRO SE

V.

Defendant
USA

represented by John E Fryatt
United States Department of Justice
(ED-WI)
Office of the US Attorney
517 E Wisconsin Ave - Rm 530
Milwaukee, WI 53202
414-297-1700
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Lisa T Warwick
United States Department of Justice
(ED-WI)
Office of the US Attorney
517 E Wisconsin Ave - Rm 530
Milwaukee, WI 53202
414-297-1786
Fax: 414-297-1738
Email: lisa.warwick@usdoj .gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Defendant
Federal Bureau of Prisons
TERMINATED: 02/12/1992

Date Filed

#

12/19/1991

1 COMPLAINT filed; with jury demand, (wied,) (Entered: 12/20/1991)

12/19/1991

2

PETITION and affidavit to proceed in forma pauperis by plaintiff Barry Joe
Smith, (wied,) (Entered: 12/20/1991)

12/23/1991

3

ORDER by Senior Judge John W. Reynolds Randomly Reassigning case to
Chief Judge Terence T. Evans fee: all counsel) (ers,)

01/21/1992

4 ORDER by Chief Judge Terence T. Evans granting pltf's petition for leave to
proceed in forma pauperis. [2-1] (cc: all counsel) (bdr,) (Entered:
01/24/1992)
SUMMONS issued as to defendant. Delivered to Marshals for Service, (bdr,)

01/24/1992
01/28/1992

Docket Text

5 RETURN OF SERVICE executed upon defendant Federal Prison Sys on

1/27/92. (eeb,) (Entered: 01/29/1992)
RESPONSE to magistrate's consent form by plaintiff. (C) (eeb,) (Entered:
01/29/1992)

01/28/1992

6

02/03/1992

7 RETURN OF SERVICE executed upon defendant Federal Prison Sys on

1/30/92, (ers,) Modified on 02/06/1992
02/03/1992

8 RETURN OF SERVICE on U.S. Attorney General executed on 1/31/92 (ers,)

(Entered: 02/06/1992)
02/12/1992

9 MOTION by defendant for order substituting the USA for its agency, Federal
Prison System, as the proper party deft in this case (bdr,) (Entered:
02/13/1992)

02/12/1992

10 ORDER by Chief Judge Terence T. Evans granting motion for order
substituting the USA for its agency, Federal Prison System, as the proper
party deft in this case [9-1] and dismissing party Federal Prison System, (cc:
all counsel) (eeb,) (Entered: 02/13/1992)

02/18/1992

11 AMENDED COMPLAINT [1-1] by plaintiff, (eeb,) (Entered: 02/19/1992)

02/18/1992

12 CERTIFICATE of service, (eeb,) (Entered: 02/19/1992)

03/20/1992

13 ANSWER by defendant to [1-1] (eeb,) (Entered: 03/23/1992)

03/20/1992

14 CERTIFICATE of service, (eeb,) (Entered: 03/23/1992)

03/30/1992

15 CERTIFICATE of service, (eeb,) (Entered: 03/31/1992)

03/30/1992

18 CERTIFICATE of service, (bdr,) (Entered: 03/31/1992)

03/30/1992

19 ANSWER by defendant to complaint [1-1] (bdr,) (Entered: 03/31/1992)

03/31/1992

16 CERTIFICATE of service, (eeb,)

03/31/1992

17 LETTER from Attorney Lisa T. Haybeck in response to court's letter of
3/T0/92rfeebr)-----------------------------------------------------------------------

04/02/1992

20 STATUS REPORT by plaintiff (wied,) (Entered: 04/03/1992)

05/26/1992

21 MOTION by plaintiff for settlement conference with certificate of service.

(eeb,)
OS/29/1992

22 BRIEF by defendant USA in opposition to motion for settlement conference

with certificate of service. [21-1] (eeb,) (Entered: 06/03/1992)
CERTIFICATE of service, (eeb,) (Entered: 06/03/1992)

05/29/1992

23

08/24/1992

24 ORDER by Chief Judge Terence T. Evans:; Motion filing ddl set for 9/18/92. A
settlement conference will not be held at this time, fee: all counsel) (eeb,)

09/17/1992

25

09/17/1992

26 , BRIEF by defendant USA in support of motion for summary judgment [25-1]
j (cad,) (Entered: 09/18/1992)

09/17/1992

27 CERTIFICATE of service by defendant USA (cad,) (Entered: 09/18/1992)

09/23/1992

28 AMENDED CERTIFICATE of service, (eeb,)

09/28/1992

29 BRIEF by plaintiff Barry Joe Smith in opposition to motion for summary
judgment [25-1] with attached affidavit, (eeb,)

10/02/1992

30 REPLY BRIEF by defendant USA in support of motion for summary

MOTION by defendant USA for summary judgment (cad,) (Entered:
09/18/1992)

judgment [25-1] (eeb,)
10/02/1992

31 CERTIFICATE of service, (eeb,)

03/15/1993

32

03/15/1993

33 JUDGMENT: by deputy clerk dismissing case (cc: all counsel) (eeb,)

ORDER by Chief Judge Terence T. Evans granting motion for summary
judgment [25-1], granting motion for settlement conference with certificate
of service. [21-1] (cc: all counsel) (eeb,) (Entered: 03/16/1993)
(Entered: 03/16/1993)

03/24/1993

34 MOTION by plaintiff Barry Joe Smith to alter or amend judgment, (eeb,)

03/24/1993

35

03/24/1993

36 AFFIDAVIT/VERIFICATION of Barry J. Smith re [34-1] (eeb,)

03/24/1993

37 DEMAND for jury trial by plaintiff Barry Joe Smith (eeb,)

03/26/1993

38

05/11/1993

39 NOTICE OF APPEAL by plaintiff Barry Joe Smith from Dist. Court decision
[33-2] (cc: all counsel) (wied,) (Entered: 05/12/1993)

05/11/1993

40 JURISDICTIONAL STATEMENT by plaintiff Barry Joe Smith (cc: all counsel)
(wied,) (Entered: 05/12/1993)

STATEMENT of no brief by plaintiff Barry Joe Smith, (eeb,)

ORDER by Chief Judge Terence T. E vans denying motion to alter or amend
judgment. [34-1] (cc: all counsel) (eeb,) (Entered: 03/29/1993)

05/12/1993

SHORT RECORD Transmitted to USCA (cc: all counsel) (wied,)

09/16/1993

RECORD on Appeal sent to 7th Circuit Court of Appeals, consisting of 1 vol
pleading and 1 loose pleading (no. 26) re [39-1] (cc: all counsel) (wied,)

03/22/1994

RECORD on appeal returned from U.S. Court of Appeals 93-2225 re appeal
[39-1] consisting of 1 volumes ofpleadings and 1 loose pleadings, (eeb,)

03/22/1994

41 MANDATE/CERTIFIED COPY from Circuit Court of Appeals is AFFIRMED.

(eel),)
03/22/1994

42 CERTIFIED COPY of judgment from USCA is AFFIRMED, in accordance with
the decision of this court entered this date, (eeb,)

03/22/1994

MANDATE/CERTIFIED COPY from the USCA affirming the decision of the
District Court [39-1] (kip,) (Entered: 03/21/1996)

PACER Service Center
Transaction Receipt
08/01/202113:40:49
PACER
lchampionforjustice Client
Login:
Code:
Search
Description:! Docket Report
Oiteria:
BillaMe
2
Cost
Pages:

2:91-cvQ1360-TTE
0.20

;

A

1
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
BARRY J. SMITH, SR.,
Plaintiff,
Case No. 18-cv-988-pp
v.
UNITED STATES CONGRESS,
and WISCONSIN LEGISLATURE,
Defendants.
ORDER ADOPTING JUDGE JOSEPH’S RECOMMENDATION (DKT. NO. 25),
DENYING PLAINTIFF’S MOTION FOR LEAVE TO FILE A SECOND
AMENDED COMPLAINT (DKT. NO. 21), DENYING AS MOOT UNITED
STATES CONGRESS’S MOTIONS TO CONSOLIDATE CASES (DKT. NOS.
29(1), 32(1)); GRANTING UNITED STATES CONGRESS’S MOTIONS TO
DISMISS IT AS A DEFENDANT (DKT. NOS. 29(11), 32(11)), DENYING
WITHOUT PREJUDICE UNITED STATES CONGRESS’S MOTIONS TO BAR
PLAINTIFF FROM FILING FURTHER PRO SB LAWSUITS (DKT. NOS. 29(111),
32(111)) AND DISMISSING CASE
On June 28, 2018, the plaintiff, who is representing himself, filed a
complaint against the United States and the State of Wisconsin, alleging that
the defendants have violated his rights under the Second Amendment and the
Wisconsin Constitution because as a felon, he cannot own a gun or hold office
unless pardoned. Dkt. No. 1. Two weeks later, the plaintiff filed an amended
complaint against the United States Congress and the Wisconsin Legislature,
alleging that 18 U.S.C. §§922(d) and (g) are void under the Constitution
because Congress does not have the authority under the Commerce Clause to
regulate the plaintiffs ability to own a gun. Dkt. No. 3. He further alleged that
“Amendment 3(2)(3)” of the Wisconsin Constitution is void under the federal
Constitution because the Wisconsin Legislature has no authority to deny the
1
Case 2:18-cv-00988-PP Filed 11/14/19 Page 1 of 16 Document 37

plaintiff the right to vote for himself. Id, The United States Congress filed a
motion to dismiss on August 31, 2018. Dkt. No. 6. The Wisconsin Legislature,
however, did not respond to the complaint. On October 3, 2018, Magistrate
Judge Nancy Joseph, to whom the case was assigned at the time , issued an
order granting the motion to dismiss. Dkt. No. 15.
The plaintiff appealed on December 6, 2018. Dkt. No. 17. Three months
later, while the appeal was pending, he filed a motion for leave to file a second
amended complaint. Dkt. No. 21. This court had no jurisdiction to rule on the
motion to file a second amended complaint because the plaintiffs notice of
appeal deprived it of jurisdiction.
On April 29, 2019, the Seventh Circuit Court of Appeals dismissed the
appeal, noting that Judge Joseph did not have the authority to dismiss the
case because the Wisconsin Legislature had not appeared as a defendant or
consented. Dkt. No. 24. Judge Joseph vacated her prior order, and issued a
report recommending that this court deny the plaintiffs motion for leave to file
a second amended complaint and dismiss the case in its entirety. Dkt. No. 25.
Judge Joseph construed the plaintiff's claims as alleging that the defendants
had “ deprived him of his Second Amendment rights and deprived him of his
nght to run for office.” Id. at 5. She observed that the plaintiff had made

similar

claims on a number of previous occasions. Id, at 5. She opined that his first
amended complaint “manifestly fails to state a claim on either ground.” Id, at 6.
As to his request to file a second amended complaint, Judge Joseph found that

2

Case 2:18-cv-00988-PP Filed 11/14/19 Page 2 of 16 Document 37

the second amended complaint “is merely a rehash of his previous arguments.”
Id.
The plaintiff objected to Judge Joseph’s recommendation. Dkt. No. 26.
Both the United States Congress and the Wisconsin Legislature filed briefs in
support of Judge Joseph’s recommendation. Dkt. Nos. 27, 28. The Wisconsin
Legislature—which had not filed a motion to dismiss—argued in its brief that
the court “may” dismiss the case against it because it had not been properly
served. Dkt. No. 28 at 3. It also asserted that the plaintiffs constitutional claim
against it failed “based on case law interpreting 42 U.S.C. § 1983 and the
Eleventh Amendment,” id. at 6, that it was not a suable entity under 42 U.S.C.
§1983 because it is not a person, i^ at 6-7, and that it was immune from suit
under the Eleventh Amendment, jcL at 7-8. The legislature argued that the
court should “accept” Judge Joseph’s report and recommendation, for the
reasons she stated and for the reasons it stated in its brief. Id. at 8.
The United States Congress also has filed motions asking the court to
consolidate this case with two cases the plaintiff filed in 2019,1 to dismiss the

■ The defendan* filed two cases in 2019. In Smith v. United States
Case No. 19-CV-671, he again has sued the United States Congress and the
isconsm Legislature, asking the court to declare unconstitutional a federal
criminal statute prohibiting convicted felons from possessing firearms and a
provision of the Wisconsin constitution making felons ineligible to hold elected
ST?ald°ned' jr\.at 1- In — ith v- United States Congress. Case No.
19-cv-lOOl, he has sued the United States Congress and the Wisconsin
Legislature, reiterating his claims that those bodies have violated a number of
his constitutional rights due to his status as the descendant of slaves: he also
makes aUegati°ns regarding his conviction for threatening the life of a federal
judge/ ^ at L Ttle court wil1 discuss these cases in the section nf iVn'c r,r^er—
•Addressing the United States Congress’s motions.
3

Case 2:18-cv-00988-PP Filed 11/14/19 Page 3 of 16 Document 37

consolidated case and to bar the plaintiff from filing further suits.

Dkt. Nos. 29,
32. The plaintiff does not object to consolidation, but objects to dismissal on
the grounds he has raised in this and previous cases and says that if the
bars him from filing cases, it will strip him of his First Amendm

court

ent right to

petition for redress. Dkt. Nos. 30, 33.
I.

Judge Joseph's Recommendation to Dismiss Case
A.

Standard of Review

The court may accept, reject or modify a magistrate judge’s findings and
recommendations on a dispositive motion. Federal Rule of Civil Procedure
72(b)(3). If a party objects to a magistrate judge’s recommendation

, the court

reviews de novo the portions of the report to which the party has objected. Id,
A motion to dismiss under Rule 12(b)(6) challenges the sufficiency

of the
complaint. A complaint must give the defendant fair notice of the claim and the
grounds upon which it rests. Bell Atlantic C.nrp v. Twomblv. 550 U.S. 544, 555
(quoting Conley v. Gibson, 355 U.S. 41, 47 (1957)). Although a plaintiff need
not plead detailed factual allegations, he or she must do more than present
"labels and conclusions, and a formulaic recitation of the elements of a

cause
of action.” Id, The complaint must state a claim to relief that is plausible
on its
face. Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009) (internal quotation omitted).
B.

Analysis

In the last eleven and a half years, courts in this district have dismissed
four civil complaints from the plaintiff, all alleging various violations

of the

plaintiffs constitutional rights due to his status as a descendant of slavpg
4
Case 2:18-cv-00988-PP Filed 11/14/19 Page 4 of 16 Document 37

his status as a convicted felon. Smith v. United States. Case No. 08

-cv-262;

Smith v. President of the United States, Case No. 08-cv-956; Smith v. United
States Congress, Case No. 13-CV-206; Smith v. United States Case No. 17-cv1419.
In the first case, Smith v. United States Case No. 08-cv-262, the plaintiff
sued the United States and the State of Wisconsin, challenging the fact that his
conviction prevented him from running for alderman. He claimed that he was
entitled to relief under the due process and equal protection clauses. Id. at Dkt.
No. 3. Judge Rudolph T. Randa dismissed the case, explaining to the plaintiff
that the legislature had a rational basis for preventing convicted felons from
running for office, that he’d sued the wrong defendants (because the
legislatures, not the governments, made and enforced the laws), and that
portions of his claims were “patently frivolous.” Id. at 1-3.
In the second case, Smith v. President of the United States, the plaintiff
sued the President of the United States, the governor of Wisconsin and the
mayor of Milwaukee, alleging that he had been “denied public employment
opportunities, the right to bear a firearm and the right to Vote for himself as a
candidate’ due to “his previous conditions of Thirteenth Amendment SI avery. ’”
Smith, Case No. 08-cv-956, 2009 WL 2591624, *2 (E.D. Wis.). Judge J. P.
Stadtmueller explained to the plaintiff that the Constitution does not prevent
the federal or state governments from limiting a convicted felon’s civil rights,
including the right to cany a firearm the right to vote and the right to hold
public office. Ich (citing Dist. of Columbia v. Heller. 554 U.S. 570. 626-627

Case 2:18-cv-00988-PP Filed 11/14/19 Page 5 of 16 Document 37

(2008); Richardson v. Ramiro, 418 U.S. 24, 56 (1974); and Romer v. Ryans
517 U.S. 620, 624 (1996)). Judge Stadtmueller pointed out that “[tjhese
limitations on one’s rights as a citizen are well-recognized collateral
consequences of a felony conviction, and the constitutionality of those long­
standing consequences are not legitimately disputed.” Id.
In the third case, the plaintiff sued the United States Congress, the
President of the United States, the governor of Wisconsin, the mayor of
Milwaukee and the Social Security Administration. Smith v. United States
Congress. Case No. 13-cv-206, Dkt. No. 1. He alleged that the Social Security
Administration had refused to allow him to participate in a program due to
racism, and argued that he was being denied a laundry list of constitutional
rights “based on a pattern and practice of Racism directed against him
as a
descendent of the slaves described by United States Supreme Court Chief
Justice Taney in Dred Scott v, Sanford. 60 U.S. (19 How.) 393, 15 L. Ed. 691.”
~ at Dkt No* L JudSe Charles N. Clevert, Jr. dismissed all the defendants
except the Social Security Administration, noting that the plaintiff had made no
specific allegations against any of the other defendants. IcL at Dkt. No. 20.
Subsequently, when the plaintiff failed to amend his complaint as to the Social
Security Administration, the court dismissed the entire case as frivolous.

Id. at

Dkt. No. 29.
Despite these decisions, the plaintiff filed a fourth case in 2017, again
naming the United States of America and the State of Wisconsin (the
defendants Judge Randa had told him were not appropriate parti

es); alleging-^-

6
Case 2:18-cv-00988-PP Filed 11/14/19 Page 6 of 16 Document 37

that he was being denied a long list of constitutional rights because of his
status as a descendant of slaves. Smith v. United States. Case No. 17-cv-1419.
Magistrate Judge David Jones dismissed this

case for lack of subject-matter

jurisdiction (as to the State of Wisconsin) and for failure to

state a claim,

reiterating the rulings of the prior judges and going into more detail about
some of the plaintiffs specific allegations not addressed by the other judges. IcL
at Dkt. No. 16.
The plaintiff filed this case in 2018. This is the second time the plaintiff
has named the United States Congress as a defendant, and the first time he
has named the Wisconsin Legislature.
1.

Dismissal of the first amended complaint

The amended complaint is brief. It states:
Jurisdictional Statement: This honorable court has jurisdiction of
this civii action arising under the laws of the United States pursuant
to 28 U.S.C. Sec. 1331.
This amended complaint is pursuant to Federal Rules of Civil
Procedure 15 (a) (1) (A) (B):
1.
18 1 ¥S,C' Section 922(d) and (g) is void as
unconstitutional because Congress does not have authority under
the commerce clause to regulate or deny my right to carry a gun.
2.
The,
pursuant
legislature
myself.

,Wisconsin
,
. constitution, Amendment 3(2)(3), is void
to the federal Constitution because the Wisconsin
does not have authority to deny my right to vote for

Relief: Enforce the United States Constitution and the rights it
guarantees me. Jury trial demand.
Dkt. No. 1.

7
Case 2:18-cv-00988-PP Filed 11/14/19 Page 7 of 16 Document 37

Both Judge Stadtmueller and Judge Jones have explained to the plaintiff
that the Supreme Court has acknowledged that the Second Amendment’s right
to bear arms is not unlimited, citing Heller. 554 U.S. at 626-627 (approving of
the longstanding prohibitions on the possession of firearms by felons”). Judge
Randa, Judge Stadtmueller and Judge Jones have pointed out that the
Supreme Court has upheld the constitutionality of limitations on a felon’s right
to vote and hold public office. See Richardson v. Ramirpg 418 U.S. 24, 54
(1974); Romer, 517 U.S. at 624.
Apparently realizing that bringing the same claims in the same form
wouldn’t get him far, the plaintiff attempts in this case to raise the same claims
in different ways against different defendants. Rather than claiming that
federal statutes prohibiting felons from possessing guns violate the Second
Amendment, the amended complaint asserts that 18 U.S.C. §922(d) (which
prohibits selling or disposing of guns or ammunition to someone the seller has
reason to believe is a felon) and §922(g) (subsection (1) of which prohibits
convicted felons from possessing firearms) are “void as unconstitutional
because Congress does not have authority under the commerce clause to
regulate or deny my right to cany a gun.” Dkt. No. 3. This claim is directed at
defendant the United States Congress, and the court construes it as a claim
that in passing 18 U.S.C. §§922(d) and (g)(1), Congress violated the Commerce
Clause.
The court does not have jurisdiction to entertain this claim. The
amended complaint fails to allege that the United States Congress ha*
8

Case 2.18-cv-00988-PP Filed 11/14/19 Page 8 of 16 Document 37

sovereign immunity. F.D.I.C. v.Meyer, 510 U.S. 471, 475 (1994); Joseph
v. Bd.
oLRegents of the Univ. of Wis. Svs 432 F.3d 746,
748 (7th Cir. 2005). “Absent
a waiver, sovereign immunity shields the Federal G

overnment and its agencies
from suit.* Meyer, 510 U.S. at 475. “Sovereign immunity is jurisdictional in
nature,” id., which means that if the Congress has not waived sovereign
immunity, this court does not have jurisdiction

over the claim against it.

Even if the Congress had waived its sovereign immunity, the amended
complaint does not state a claim. The Commerce Clause, found in Article I, §8
of the Constitution, gives Congress the authority “[t]o regulate Commerce with
foreign Nations, and among the several States, and with the Indian tribes.” It
has nothing to do with a private citizen’s right t

o own a gun. The plaintiff is

correct that the Commerce Clause doesn't authorize Congress to regulate his
right to carry a gun. But that is irrelevant; the question is

not whether there is

a provision of the Constitution that authorizes the regulation, but whether
there is a provision of the Constitution that prohibits the regulation. There is
none. The provision that could have prohibited the regulation is the Second
Amendment, but as other judges have told the plaintiff, it does not. As

recently
as May of this year, the Seventh Circuit Court of Appeals held that “the
government has established that the felon dispossession statutes are
substantially related to the important governmental objective of keeping
firearms away from those convicted of serious crimes,” and concluded that
because the appellant “was convicted of a serious federal felon for conduct
broadly understood to be criminal, his challenge to the constituti^.l^,
9

Case 2:18-cv-00988-PP Filed 11/14/19 Page 9 of 16 Document 37

g

922(g)(1) is without merit.” Kanter v. Barr. 919 F.3d 437

451 (7th Cir. 2019).
The court must dismiss the complaint as to the United States Congress.
The plaintiff similarly tries to reframe his challenge to Wisconsin’s
prohibition against felons running for elected office by characterizing it
challenge to “Amendment 3(2)(3)” of the Wisconsin Constitution
says that the Wisconsin Legislature does not have the

as a

• Dkt. No. 3. He

authority to deny him

the right to vote for himself. Id. The court construes this

claim against the

Wisconsin Legislature as a claim that in ratifying that provision of the
Wisconsin Constitution, the legislature violated some provision of the federal
Constitution.
The court must dismiss this claim for several reasons. First, the
Wisconsin Legislature has alleged that the plaintiff did

not properly serve it

with the c omplamt. The plaintiff has not refuted this allegation. The plaintiff
filed the amended complaint on July 10, 2018. Under Fed. R. Civ. P. 4(m), if
the plaintiff has not properly served a defendant “within 90 days after the
complaint is filed,” the court “must” dismiss the case
without prejudice against
that defendant, or order that the plaintiff effectuate service within
a specified
time. The ninety-day deadline has long passed.
Second, although the court could give the plaintiff a deadline for
effectuating proper service, it would be futile to do so. The Wisconsin
Legislature argues that 42 U.S.C. §1983-the law that creates

a private right of

action for a plaintiff to sue in federal court for violations of his civil rights_
makes “persons” liable for violating a citizen’s civil rights, and that th«-------- 10
Case 2:18-cv-00988-PP Filed 11/14/19 Page 10 of 16 Document 37

Supreme Court has held that that state is

not a person” within the meaning of

§1983. See Will v. Mich. Dep't. of State Police, 491 U.S. 58, 71 (1989). Because
the Wisconsin Legislature is comprised of “officials [of the state) acting in their
official capacities,” id., it is not a person subject to suit under §1983.

Further,

the Eleventh Amendment bars suits against states unless they have waived
their immunity. Id, at 66, citing Welch v. Tex. Dep’t of Highways and Pnhl.v
Transportation. 483 U.S. 468, 472-73 (1987).
Finally, even if all the above weren’t the case, the court can find

no

Amendment 3(2)(3)” to the Wisconsin Constitution.

Article III, Section 2 (4) (a)
allows the enactment of laws that exclude “from the right of suffrage” people
who have been “ [cjonvicted of a felony, unless restored to civil rights.” The
plaintiff has asserted in some of his other cases, however, that he finished
serving his prison sentence long ago. Under Wis.

Stat. §304.078(3), a convicted

felon’s civil rights are restored once he’s completed serving his sentence,
so it
seems unlikely that the plaintiff is challenging this provision of the state
constitution. Article XIII, Section 3(2) of the Wisconsin Constitution provides
that a convicted felon is not eligible “to any office of trust,
profit or honor in
this state unless pardoned of the conviction.”
Assuming the plaintiffs claim
that the legislature has violated his right to vote for himself is
challenge that provision of the statute constitution,

an attempt to

it has no merit.

to ™a for °^old Public office is not a fundamental right
Brozd-Breashears u. Bdandw, 53 F.3d 789, 792-93 (7th Cir 19951

^34 ^h 0^1994,atbU5PetClaSS’

^ ^d Zfl

:
C+ir- 1994)> thus> a ban on felons running for elective office
lVal!d lf
ratlonally related to a legitimate
e-e
-Clements v. Fashing, 457 U.S. 957, 963 [. ] (1982)
11
Case 2-.18-CV-00988-PP Filed 11/14/19 Page 11 of 16 Document 37

Parker v. Lyons, 757 F.3d 701, 707 (7th Cir. 2014).
Th1S court agrees with Judge Joseph that the amended complaint

states

no claim for relief and must be dismissed as to both defendants.
2.

Motion for leave to file second amended complaint

After Judge Joseph issued her order dismissing the first amended
complaint, and after the plaintiff had appealed that order, he asked the

court to

allow him to file a second amended complaint. Dkt. No. 21. The proposed
second amended c omplaint alleges that the federal statute criminalizing
possession of firearms by felons is a “Bill of Attainder”

and that it violates
“Article 1, Section 9, Clause 3 of the United States Constitution
Dkt. No.
21-1. That provision of the Constitution says that “[n]o Bill of Attainder
or ex
post facto Law shall be passed.” “The prohibitions
on ‘Bills of Attainder’ in Art.
I, §§ 9-10, prohibit legislatures from singling out disfavored persons and
meting out summary punishment for past conduct.” Bank Markazi v.
__ U.S. __ , 136 S. Ct. 1310,
1324-25 (2016). The Seventh Circuit has address
and rejected this argument, so allowing the plaintiff to amend the complaint
on
this ground would be futile.
w!" /S+-§
a
attainder, which would be “a law that
legislatively determines guilt and inflicts punishment unon an
individual without provision of the protections of a judicial trial ”
Nvconv Admr of General Services, 433 U.S. 425, 468 [. . ] (1977)
The statute does not determine guilt based on a previous felonv
conviction, nor does it remove the protections of a trial.
Y
United States v. Hemmings. 258 F.3d 587, 594-95 (7th Cir. 2001).

12
Case 2:18-cv-00988-PP Filed 11/14/19 Page 12 of 16 Document 37

The proposed second amended complaint similarly tries

to cast the

Wisconsin statute that criminalizes a felon possessing a firearm as a bill of
attainder, dkt. no. 21-1 at 2; that claim also would fail under Hemmings.
The proposed second amended complaint also characterizes Article XIII,
Section 3(2) of the Wisconsin Constitution, which prohibits felons from being
eligible for elected office, as a bill of attainder. Dkt. No. 21-1 at 2-3. This
prohibition is not a criminal statute; it neither determines guilt nor inflicts
punishment. See Dehainaut v, Pena. 32 F.3d 1066,
Supreme Court has defined a bill of attainder
determines guilt and inflicts punishment

1070 (7th Cir. 1994) (“The

as ‘a law that legislatively

upon an identifiable individual

without provision of the protections of a judicial trial.’”). It would be futile for
the court to allow the plaintiff to amend on this ground.
Finally, the proposed second amended complaint reiterates the plaintiffs
claim, made in earlier cases, that Wisconsin’s prohibition

on his right to vote

violates his rights under the Fifteenth Amendment (the amendment that
prohibits federal and state governments from abridging citizens’ right to vote
based on, among other things, “previous condition of servitude”) and the
Thirteenth Amendment (which prohibits slavery and involuntaiy servitude).
The judges m the plaintiffs prior cases have rejected these claims, and they
were right to do so. The Thirteenth Amendment states that “[n]either slavery'
nor involuntary servitude, except as a punishment for crime whereof the party
shall have been duly convicted, shall exist within the United St

ates . . . .

(Emphasis added.) It specifically excepts convictions from the definiti

ons of

13
Case 2:18-cv-00988-PP Filed 11/14/19 Page 13 of 16 Document 37

“slavery” and “involuntary servitude.” For the same reason,

Wisconsin’s law

prohibiting felons to vote does not violate the Fifteenth Amendment
is not a law prohibiting people from voting based

, because it

on a previous condition of

“servitude.”
The court agrees with Judge Joseph that the plaintiffs proposed second
amended complaint is a re-characterization of the

same claims he has raised in

prior cases, that the claims it lists have no
merit and that it would be futile to
allow him to amend.
H.

The United States Congress’s Motions to Consolidate Dismiss anri
Suits'1 d" PreClUdta6 PIaintifffr°” InitUting F^ker ^Se

The United States Congress has filed motions asking the

court to

consolidate this case with the two 2019 cases. Dkt. Nos. 29, 32. It also asked
the court to dismiss the consolidated cases, because the Congress had not
waived sovereign immunity and because the complaints state no plausible
claims for relief. Id, Finally, the motions ask the court to find the plaintiff in
contempt and to bar him from filing additional pro se lawsuits in this district.
Id.
The court is issuing separate orders in the plaintiffs three

cases, because
each frames the plaintiffs arguments in a slightly different way. For that
reason, it will deny as moot the portion of the United States Con

gress’s motions

that asks the court to consolidate the cases.

14
Case 2:18-cv-00988-PP Filed 11/14/19 Page 14 of 16 Document 37

For the reasons stated above, the

court will grant the portion of the

United States Congress’s motions that ask the

court to dismiss it as a

defendant.
The court will address the portion of the motions that ask the court to
bar the plaintiff from further filings in its order in Case No

. 19-cv-lOOl; it will
deny those portions of the motions without prejudice in this
case.
III.

Conclusion
The co urt ADOPTS Judge Joseph’s recommendation that the

the plaintiffs motion for leave to file

court deny

a second amended complaint and that it

dismiss this case. Dkt. No. 25.
The court DENIES the plaintiffs motion for leave to fil

e a second

amended complaint. Dkt. No. 21.
The court DENIES AS MOOT the United States Congress’s motions to
the extent that they seek consolidation with the 2019

cases. Dkt. Nos. 29(1),

32(1).
The court GRANTS the United States Congress’s motions to the
that they ask the court to dismiss the Con

extent

gress as a defendant. Dkt. Nos.

29(11), 32(11).
The court DENIES WITHOUT PREJUDICE the United States Con

gress’s
motions to the extent that they seek an order barring the plaintiff from filing
further cases; the court will address that

request in its ruling Case No. 19-cv-

1001. Dkt. Nos. 29(111), 32(111).

15
Case 2:18-cv-00988-PP Filed 11/14/19 Page 15 of 16 Document 37

The court ORDERS that this case is DISMISSED. The court will enter
judgment accordingly.
This order and the judgment to follow are final.
A dissatisfied party may
appeal this court’s decision to the Court of Appeals for the S

eventh Circuit by

filing in this court a notice of appeal within 30 days of the entiy of judgment.
See Fed. R. of App. P. 3. 4. This court may extend this deadline if

a party timely

requests an extension and shows good cause or
excusable neglect for not being
able to meet the 30-day deadline. See Fed. R. App. P. 4(a)(5)(A).
Under limited circumstances, a party may ask this court to alter or
amend its judgment under Federal Rule of Civil Procedure 59(e)

or ask for relief
from judgment under Federal Rule of Civil Procedure 60(b). Any motion under
Federal Rule of Civil Procedure 59(e) must be filed within 28 days of the entry
of judgment. The court cannot extend this deadlin

e. See Fed. R. Civ P. 6(b)(2).

Any motion under Federal Rule of Civil Procedure 60(b) must be filed within a
reasonable time, generally no more than one year after the entiy of the
judgment. The court cannot extend this deadline. S
See Fed. R. Civ. P. 6(b)(2).
The court expects parties to closely review all applicable
determine, what, if any, further action is appropriate in

rules and

a case.

Dated m Milwaukee, Wisconsin this 14th day of November, 2019.

BY THE COURT:

HON. PAMELA PEPPER
Chief United States District Judge

16
Case 2:18-cv-00988-PP Filed 11/14/19 Page 16 of 16 Document 37

2
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

BARRY J. SMITH, SR.,
Plaintiff,
Case No. 19-cv-671-pp
v.
THE UNITED STATES CONGRESS,
and WISCONSIN LEGISLATURE,
Defendants.

ORDER GRANTING DEPENDANTS’ MOTIONS TO DISMISS (DKT. NOS. 5,
10(11), 12(H)), DENYING AS MOOT UNITED STATES CONGRESS’S MOTIONS
TO CONSOLIDATE CASES (DKT. NOS. 10(1), 12(1)); DENYING WITHOUT
PREJUDICE UNITED STATES CONGRESS’S MOTIONS TO BAR PLAINTIFF
FROM FURTHER FILINGS (DKT. NOS. 10(111), 12(111)) AND DISMISSING
CASE

On May 5, 2019, the plaintiff, who is representing himself, filed a
complaint against the United States Congress and the Wisconsin Legislature,
alleging that the federal and state statutes criminalizing possession of firearms
by felons and the portion of the Wisconsin Constitution that prohibits felons
from holding elected office unless pardoned constitute bills of attainder that
violate Article I, §9, Clause 3 of the United States Constitution. Dkt. No. 1 at 13. The Wisconsin legislature filed a motion to dismiss, as did the United States
Congress. Dkt. Nos. 5, 10. The motion from the United States Congress also
asked the court to consolidate this case with a case the plaintiff had filed in
2018, Smith v. United States Congress. Case No. 18-cv-988, and to bar the
plaintiff from filing any further pro se lawsuits. Dkt. No. 10. Two and a half
1
Case 2:19-cv-00671-PP Filed 11/14/19 Page 1 of 13 Document 15

months later, the United State s Congress filed another motion to dismiss,
consolidate and bar the plaintiff; this motion
motion except that it asked the

was identical to the previous

court to consolidate this case with the 2018

case and a case the plaintiff filed after he filed this

one (Smith v. United state*

Congress, Case No. 19-cv-1001). Dkt. No. 12.
The court will grant the motions to dismiss, d

eny as moot the United

States Congress’s motions to consolidate, and deny without prejudice the
United States Congress’s motions to bar (it will rule

on these motions in its

order in Case No. 19-cv-1001).
I.

Motions to Dismiss (Dkt. Nos. 5, 10(11), 12(H))
A.

Standard of Review

A motion to dismiss under Federal Rul

e of Civil Procedure 12(b)(6)
challenges the sufficiency of the complaint. A complaint
must give the
defendant fair notice of the claim and the grounds
upon which it rests. Bell
Atlantic Corn, v. Twombly. 550 U.S. 544,
555 (quoting Conley v. Gibson. 355
U.S. 41 47 (1957)). Although a plaintiff need
not plead detailed factual
allegations, he or she must do more than present “labels and conclusions,
and
a formulaic recitation of the elements of a
cause of action.” IcL The complaint
must state a claim to relief that is plausible on its face.
Ashcroft v. Iqbal 556
U.S. 662, 678 (2009) (internal quotation omitted).

2

Case 2:19-cv-00671-PP Filed 11/14/19 Page 2 of 13 Document 15

B.

Analysis
1.

Litigation history

In the last eleven and a half years, courts in this district have di

smissed
five civil complaints from the plaintiff, all alleging various violations of the
plaintiffs constitutional rights due to his status

as a descendant of slaves and

his status as a convicted felon. Smith v.
V- United States, Case No. 08-cv-262;
Smith v. President of the United States Case No. 08
-cv-956; Smithv\ United
States Congress, Case No. 13-cv-206; Smith v. United StatPg Case No.
17-cv1419; Smith v. United States Congress. Case No. 18-CV-988J
In the first case, Smith v. United States. Case No.
sued the United States and the State of Wisconsin,

08-cv-262, the plaintiff

challenging the fact that his

conviction prevented him from running for alderman. He claimed that he
entitled to relief under the due process and equal protection
No. 3. Judge Rudolph T. Randa dismissed the

was

clauses. Id. at Dkt.

case, explaining to the plaintiff

that the legislature had a rational basis for preventing convicted felons from
running for office, that he’d sued the wrong defendants (because the
legislatures, n ot the governments, made and enforced the laws), and that
portions of his claims were “patently frivolous.” Id. at 1-3.

and

Wfisconsin legislature, reiterating his claims tta those

bodies have violated a number of his__ —^wlIcu
threatentagthe hfeoTa feder^ju^id.1^tTxhe court* Th”8 COnvIctlc
the SeCti°n of this order addressing the United
3

Case 2:19-cv-00671-PP Filed 11/14/19 Page 3 of 13 Document 15

In the second case, Smith —President of the United States, the plaintiff
sued the President of the United States, the governor of Wisconsin and the
mayor of Milwaukee, alleging that he had be

en “denied public employment

opportunities, the right to bear a firearm and the right to Vote for himself as a
candidate’ due to *his previous conditions of Thirteenth Am

endment Slaveiy.’”

Smith, Case No. 08-cv-956, 2009 WL 2591624, *

2 (E.D. Wis.). Judge J. p.
Stadtmueller explained to the plaintiff that the Co
nstitution does not prevent
the federal or state governments from limiting a convicted felon’s civil rights,
including the right to carry a firearm the right to vote and the right to hold
public office. IdL (citing Dist. of Cnlumhia

vjieller, 554 U.S. 570, 626-627

(2008); Richardson ^.Rnming, 418 U.S. 24, 56 (1974); and Bn„„,
517 U.S. 620, 624 (1996)). Judge Stadtmueller pointed

Evans.

out that "[tjhese

limitations on one’s rights as a citizen are well-recognized collateral
consequences of a felony conviction, and the c

onstitutionality of those long-

standing consequences are not legitimately disputed.” Id.
In the third case, the plaintiff sued the United State

s Congress, the
President of the United States, the governor of Wisconsin, the mayor of
Milwaukee and the Social Security Administration.

Smith v. United States
congress, Case No. 13-cv-206 (E.D. Wis.). He alleged that th
e Social Security
Administration had refused to allow him t
o participate in a program due to
racism, and argued that he was being denied a laundiy list of constitutional
rights “based on a pattern and practice of Racism directed against him
as a
descendent of the slaves described by United States Sup
reme_Co.ur.t-Ch.ief4
Case 2:19-cv-00671-PP Filed 11/14/19 Page 4 of 13 Document 15

Justice Taney in Dred Scott w_Sanford, 60 U.S. (19 How.) 393, 15 L.
Ed. 691.”
Id. at Dkt. No. 1. Judge Charles N. Clevert,
Jr. dismissed all the defendants
except the Social Security Administration, noting that the plaintiff had made
specific allegations against any of the other defendants.
Subsequently, when the plaintiff failed to

no

Id. at Dkt. No. 20.

amend his complaint as to the Social

Security Administration, the court dismissed the entire

case as frivolous. Id. at

Dkt. No. 29.
Despite these decisions, the plaintiff filed a fourth case in 2017, again
naming the United States of America and the State of Wisconsin (the
defendants Judge Randa had told him were not

appropriate parties), alleging

that he was being denied a long list of constitutional rights because

of his

status as a descendant of slaves. Smith v. United States. Case No. 17-cv-1419
at Dkt. No. 1. Magistrate Judge David Jones dismissed thi

s case for lack of

subject-matter jurisdiction (as to the State of Wisconsin) and for failure to

state
a claim, reiterating the rulings of the prior judges and going into more detail
about some of the plaintiffs specific allegations not addressed by the other
judges. Id. at Dkt. No. 16.
The plaintiff filed his fifth case in 2018. Smith v. United States rnnrce
Case No. 18-cv-988. In the amended complaint in that case, the plaintiff
argued that the Commerce Clause to the United States Constitution did
authorize Congress to regulate his right to have a firearm
Amendment 3 (2) (3)” of the Wisconsin Constitution

not

, and that

unconstitutionally barred

him from running for office. IcL at Dkt. No. 3. The amended complaint - —---5

Case 2:19-CV-00671-PP Filed 11/14/19 Page 5 of 13 Document 15

consisted of only two paragraphs. Judge Joseph dismissed the

amended

complaint, id, at dkt. no. 15; after vacating that order on remand from the
Seventh Circuit, she issued a recommendation that this court dismiss the
case,
id. at dkt. no. 25. She also recommended that this court deny the plaintiffs
motion to file a second amended complaint, which he filed after Judge Joseph
had dismissed his original complaint. Id. at Dkt. No. 21.
This court has issued an order dismissing Smith v. United States
~JlgreSS> CaSe N°- 18_cv_988> and adopting Judge Joseph’s recommendation
to deny the plaintiffs motion for leave to file a second amended complaint in
that case.
2.

The current case

The complaint the plaintiff has filed in this case is almost identical to the
proposed second amended complaint he wanted to file in the 2018 case, and
the court will dismiss this complaint for the same reasons that it has denied
him leave to file the proposed second amended complaint in the 2018
a.

case.

Claim against the United States Congress

The complaint alleges that the federal statute criminalizing possession of
firearms by felons is a "Bill of Attainder” and that it violates “Article 1
9, Clause 3 of the United States Constitution

, Section

•" Dkt. No. 1 at 1-2. This

claim is directed at the United States Con gress.
The United States Congress has asked the court to dismiss it as a
defendant because it has not waived its sovereign immunity. Dkt. Nos. 10(11),
12(11). The court agrees that it does not have jurisdiction to entertai

n-this—

6
Case 2:19-cv-00671-PP Filed 11/14/19 Page 6 of 13 Document 15

claim. The complaint fails to allege that the United States Congress has

waived

sovereign immunity. F.D.I.C. — Meyer, 510 U.S. 471, 475 (1994); Joseph v. Bd
OLBgfients of the Univ. ofWis. Sys., 432 F.3d 746, 748 (7th Cir. 2005). “Absent
a waiver, sovereign immunity shields the Federal G

overnment and its agencies
from suit.* Meyer, 510 U.S. at 475. “Sovereign immunity is jurisdictional in
nature,” id., which means that if the Congress has not waived sovereign
immunity, this court does not have jurisdiction over the claim against it.
Even if the court had jurisdiction over the claim, the court would dismiss
the United States Congress, because the plaintiffs claim has

no merit. Article I,

§9, Clause 3 of the Constitution says that “[n]o Bill of Attainder

or ex post facto

Law shall be passed.” “The prohibitions on “Bills of Attainder’ in Art. I, §§ 9-10,
prohibit legislatures from singling out disfavored persons and meting

out

summary punishment for past conduct.” Bank MarWi v. Peterson.__ U.S.
----, 136 S. Ct. 1310, 1324-25 (2016).
The Seventh Circuit has considered and rejected the argument that 18
U.s.c. §922(g), the federal statute making it a crime for a felon to possess a
gun, constitutes a bill of attainder.

Lis?

“

The statute does not determine guilt based on a previous felony
conviction, nor does it remove the protections of a trial.
Y
United States v. Hemming, 258 F.3d 587, 594-95 (7th Cir. 2001). The
logic applies to the plaintiffs argument that 18 U.S.C.

same

§922(d) (the federal

statute that-makcs it a crime to knowingly sell guns to a convicted felon) is a
7

Case 2:19-cv-00671-PP Filed 11/14/19 Page 7 of 13 Document 15

bill of attainder; that statute does not determine guilt b
felony conviction and does not remove the protections

ased on a previous

of a trial. The court will

grant the United States Congress's motions to dismiss it

as a defendant.

The complaint alleges that Wisconsin Statutes §§941.29(lm)(a)(b) and
(bm) are unconstitutional bills of attainder. Dkt. No.

1 at 2. This is a claim
against the Wisconsin Legislature. Sections 941.29(lm)(a) and (b) provide that
a person who possesses a firearm is guilty of a felony if that person has been
convicted of a felony in Wisconsin or has been

convicted elsewhere of a crime

that would be l felony if committed in Wisconsin. Section 941.29(lm)(bm)
provides that a person who possesses a firearm is guilty of a felony if that
person has been adjudicated delinquent for a crime

committed on or after April
21, 1994 if the crime, had it been committed by an adult, would have been a
felony.
The Wisconsin Legislature has asked the
defendant because it has not waived its
42 U.S.C. §1983—the law that creates

court to dismiss it as a

sovereign immunity. Dkt. No. 5. Title

a private right of action for a plaintiff to

sue in federal court for violations of his civil rights-makes 'persons” liable for
violating a citizen’s civil rights, and the Supreme Court has held that
not a ‘person” within the meaning of §1983. See Will

a state is

V. Mich. Den't. nf

Police, 491 U.S. 58, 71 (1989). Because the Wisconsin Legislature is comprised
of “officials [of the state] acting in their official

capacities,” id., it is not a person
subject to suit under §1983. Further, the Eleventh Amendment bars
suits
against states unless they have waived their i
immunity. Id.-at 66f citing Welch
8

Case 2:19-cv-00671-PP Filed 11/14/19 Page 8 of 13 Document 15

v. Tex. Dep’t of Highways and Public Transportation 482 U.S. 468, 472-73
(1987). The Wisconsin Legislature asserts that it has not expressly waived its
sovereign immunity, that there are no overwhelming textual implications of
sovereign immunity and that it has not specifically agreed to be subject to suit
in federal court. Dkt. No. 5 at 2-3.
Even if the Wisconsin Legislature had subjected itself to suit under
§1983 in federal court, the plaintiff's claim would fail under Hemming.

Like 18

U.S.C. §§922(d) and (g), the Wisconsin felon-in-possession statutes do
not
determine guilt based on a previous felony conviction and do

not remove the

protections of a trial.
The complaint similarly characterizes Article XIII, Section 3(2) of the
Wisconsin Constitution, which provides that a convicted felon is not eligible for
elected office, as a bill of attainder. Dkt. No. 1 at 2-3. This, too, is a claim
against the Wisconsin Legislature. Again, the legislature is immune from suit
and has not waived that immunity. Even if it had, the Wisconsin Constitution's
prohibition on felons being eligible for elected office is not a criminal statute; it
neither determines guilt nor inflicts punishment. See Dehainaut v. Pena. 32
F.3d 1066, 1070 (7th Cir. 1994) (“The Supreme Court has defined a bill of
attainder as ‘a law that legislatively determines guilt and inflicts punishment
upon an identifiable individual without provision of the protections of a judicial
trial.”’).

As relief, the complaint demands immediate restoration of the plaintiffs
“Second Amendment right to keep and bear arms for lawful purposes .-and----9
Case 2:19-cv-00671-PP Filed 11/14/19 Page 9 of 13 Document 15

immediate restoration of plaintiff s Fifteenth Amendment right to
himself as a candidate for elected office.”

vote for

Dkt. No. 1 at 3. The judges in the

plaintiffs prior cases have explained that his rights under the Second
Amendment are subject to limitation, and that a prohibition on felons
possessing firearms does not violate the Second Amendment,
Columbia v. Heller, 554 U.S. 570 (2008). See also.

citing Dist. of

McDonald v. City of Chi m

561 U.S. 742 (2010).
As for the Fifteenth Amendment, it provides that neither the United
States nor the states may deny or abridge a citizen’s right to vote “

on account
of race, color, or previous condition of servitude.” The plaintiff has not
demonstrated that in ratifying the Wisconsin Constitution’s prohibitio

n on
felons being eligible to hold office, the Wisconsin legislature possessed
discriminatoiy intent. Parker v. Lyons, 940 F. Supp. 2d 832, 839 (C.D. Ill.
2013). And neither a felony conviction nor the resulting incarceration
constitutes “servitude;” the Thirteenth Amendment states that “[neither
slavery nor involuntaiy servitude, except as a punishment for crime

whereof the
party shall have been duly convicted, shall exist within the United St
ates . . . .
(Emphasis added.) So Wisconsin’s prohibition on felons standing for public
office is not based on “previous condition of servitudebecause a felony
conviction and sentence do not constitute “servitude.”
The court will grant the Wisconsin Legislature’s motion to dismiss it
defendant.

10
Case 2:19-cv-00671-Pp Filed 11/14/19 Page 10 of 13 Document 15

as a

II.

The United States Congress’s Motions to Consolidate
°rder Precludin* Plaintiff from Initiating Further Pro So
The United States Congress has filed motions asldng the

court to

consolidate this case with the 2018 case and the case
the plaintiff filed in July
2019 (Case No. 19- cv-1001). Dkt. Nos. 10(1), 12(1). It also asked the court to
dismiss the consolidated cases, because the Congress had not waived
sovereign
immunity and because the complaints state no plausible claims for relief. Dkt.
Nos. 10(11), 12(11). Finally, the motions ask the

court to find the plaintiff in

contempt and to bar him from filing additional pro se lawsuits in this district.
Dkt. Nos. 10(111), 12(111).
The court is issuing separate orders the plaintiffs three
each frames the plaintiffs arguments in

cases, because

slightly different way. For that

reason, it will deny as moot the United States Congress's motions to
consolidate the cases.
For the reasons discussed,above, the court is granting the portion of the
United States Congress’s motions that seeks dismissal.
The court will address the request to bar the plaintiff from further filings
in its order in case No. 19-cv-lOOl; it will deny that portion of the motions
without prejudice in this case.
III.

Conclusion
The court GRANTS the Wisconsin Legislature’s

motion to dismiss. Dkt.

No. 5.

11
Case 2:19-cv-00671-PP Filed 11/14/19 Page 11 of 13 Document 15

The court DENIES AS MOOT that portion of the United St
Congress’s motions that seeks consolidation

ates

of this case with the 2018 and

July 2019 cases. Dkt. Nos. 10(1); 12(1).
The court GRANTS that portion of the United States Congress’s motions
that seeks dismissal of the claim

against the United States Congress. Dkt. Nos.

10(11); 12(11).
The court DENIES WITHOUT PREJUDICE

that portion of the United

States Congress’s motions that asks the

court to bar the plaintiff from filing
further pro se cases; the court will address that
motion in its ruling on the July
2019 case. Dkt. Nos. 10(111), 12(111).
The court ORDERS that this case is DISMISSED. The court will enter
judgment accordingly.
This order and the judgment to follow are final.
A dissatisfied party may
appeal this court’s decision to the Court of Appeals for the S
eventh Circuit by
filing in this court a notice of appeal within 30 days of the entry of judgment.
See Fed. R. of App. P. 3, 4. This court may extend this deadline

if a party timely

requests an extension and shows good cause or
excusable neglect for not being
able to meet the 30-day deadline. See Fed.
R. App. p. 4(a)(5)(A).
Under limited circumstances, a party may ask this court to alter or
amend its judgment under Federal Rule of Civil Procedur
from judgment under Federal Rule

e 59(e) or ask for relief

of Civil Procedure 60(b). Any motion under

Federal Rule of Civil Procedure 59(e) must be Bled within 28 days of the

entiy

of judgment. The court cannot extend this deadline
^ee_Fed_R,_Civ-P^-6(b)-(2)T12
Case 2:19-CV-00671-PP Filed 11/14/19 Page 12 of 13 Document 15

Any motion under Federal Rul e of Civil Procedure 60(b) must be filed within a
reasonable time, generally no
more than one year after the entry of the
judgment. The court cannot extend this deadlin

e. See Fed. R. Civ. P. 6(b)(2).

The court expects parties to closely review all applicable rules and
determine, what, if any, further action is

appropriate in a case.

Dated m Milwaukee, Wisconsin this 14th day of November, 2019.

BY THE COURT:

HOW. PAMELA PEPPER
Chief United States District Judge

13
Case 2:19-cv-00671-PP Filed 11/14/19 Page 13 of 13 Document 15

3
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
BARRY J. SMITH, SR.,
Plaintiff,
Case No. 19-cv-1001-pp
v.
UNITED STATES CONGRESS,
and WISCONSIN LEGISLATURE,
Defendants.
ORDER DENYING AS MOOT UNITED STATES CONGRESS’S MOTION TO
CONSOLIDATE (DKT. NO. 5(1)), GRANTING MOTION TO DISMISS UNITED
STATES CONGRESS AS A DEFENDANT (DKT. NO. 5(11)), GRANTING IN
PART UNITED STATES CONGRESS’S MOTION FOR AN ORDER
PRECLUDING PLAINTIFF FROM INITIATING FURTHER PRO SE SUITS
(DKT. NO. 5(m)) AND DISMISSING CASE
On July 15, 2019, the plaintiff, representing himself, filed a civil rights
complaint against the United States Congress and the Wisconsin Legislature.
Dkt. No. 1. He alleged that his 1990 conviction for threatening the life of a
federal judge subjected him to unconstitutional slavery or involuntary
servitude in violation of the Thirteenth Amendment, because he is the
descendant of slaves. Id at 1. He alleged that he completed serving his term of
“Thirteenth Amendment enslavement” long ago and that he is entitled to
“complete restoration of his citizenship.” Id at 2. The complaint alleged that
the defendants have deprived him of various constitutional rights, including his
right to be free from slavery under the Thirteenth Amendment, his Second
Amendment right to keep and bear arms and his Fifteenth Amendment right
“to vote for the free person of his choice for elected office.” Id The complaint

1
Case 2:19-cv-01001-PP Filed 11/14/19 Page 1 of 26 Document 8

alleged that the defendants “have enacted unconstitutional laws to

conceal that
they have denied plaintiffs citizenship rights except such as those which they
choose to grant him.” Id. K also alleged that the defendants acted “against
plaintiffs citizenship rights under the Dred Scott case.” Ii As relief, the
plaintiff “demands his full and unabridged United States of America Citizenship
rights be immediately restored.” Id.
One of the defendants, the United States Congress, filed

a motion to

consolidate cases, to dismiss and to preclude the plaintiff from initiating
further pro se suits. Dkt. No. 5. The motion asks the court to consolidate this
case with Smith v. U.S. Congress. Case No. 18-cv-988 and Smith v. IT S
congress, Case No. 19-cv-671. Ich at 6. It also asks the court to bar the
plaintiff from filing any further cases, given his history of litigation on the
claims he raised in the complaint.
The court will deny as moot the United States Congress’s motion to
consolidate cases, because in

separate orders it already has dismissed the two

cases to which the motion refers. The court will grant the motion to dismiss the
United States Congress as a defendant. The court also will grant in part the
United States Congress’s request to bar the plaintiff from filing further cases.
The other defendant, the Wisconsin Legislature, has not appeared.
Because the court finds that the plaintiffs claims

against the legislature are
obviously frivolous, the court will dismiss those claims
sua sponte for lack of
subject-matter jurisdiction.

2

Case 2:19-cv-OlOOl-PP Filed 11/14/19 Page 2 of 26 Document 8

I.

Litigation History
The plaintiffs history of litigation in this district dates back more than

thirty years. In 1987, he filed a housing discrimination lawsuit,
National Corp.. Case No. 87-cv-1300.

Smith v.

United States District Judge John

Reynolds dismissed that lawsuit, and denied the plaintiffs motion to

reconsider

on October 9, 1989. Id. at Dkt. No. 101.
[A]t 2:20 a.m. on December 29 tqsq
„
Connate Assistant for the Milwkukee kff^ of the°FBI rece'S
Judge°RevTx!]ds"0,m £“ P1^' >The

toeatenedTwu

“r

a
e was calling to warn the FBI so

that it could stop him.

United States v. Smith. Case No. 90-2368,

1991 WL 36269, at *1 (7th Cir.

March 18, 1991). A jury convicted the plaintiff of threatening th

e life of a

federal judge in violation of 18 U.S.C. §! 15(a)(1)(B), and Judge J. P.
Stadtmueller sentenced him to serve a twelve-month sentence in custody
followed by four years of supervised

release (later reduced to three years). Id.

The Seventh Circuit affirmed the conviction and
In the last eleven and a half years,

sentence. Id. at *4.

courts in this district have dismissed

six civil complaints from the plaintiff, all alleging various violations of the
plaintiffs constitutional rights due to his

status as a descendant of slaves and

his status as a convicted felon. Smith

Y- United States Case No. 08 -cv-262;
Smith v. President of the United States Case No.
08-cv-956; Smith v. Unif-pH
States Congress Case No. 13 -cv-206; Smith v. United

Case No. 17-cv-

3

Case 2:19-cv-01001-PP Filed 11/14/19 Page 3 of 26 Document 8

1419> Smith v. United States Congress. Case No.

18-cv-988; Smith v. ITnitPH

States Congress Case No. 19-cv-671.
In the first case, Smith v. United

Case No. 08

-cv-262, the plaintiff

sued the United States and the State of Wisconsin,

challenging the fact that his
conviction prevented him from running for alderman.
He claimed that he was
entitled to relief under the due process and equal protection
clauses. Id. at Dkt.
No. 3. Judge Rudolph T. Randa dismissed the
case, explaining to the plaintiff
that the legislature had a rational basis for preventing convicted felons from
running for office, that he’d sued the
legislatures, not the governments,

wrong defendants (because the

made and enforced the laws), and that

portions of his claims were “patently frivolous.” Id. at 1-3.
In the second case, Smith — President of the United States the plaintiff
sued the President of the United States, the governor of Wisconsin and the
mayor of Milwaukee, alleging that he had b een denied public employment
opportunities, the right to bear a firearm and the right to Vote for himself

as a

candidate’ due to liis previous conditions of Thirteenth Amend

ment Slavery.’”
Smith, Case No. 08-cv-956, 2009 WL 2591624, *2 (E.D, Wis.). Judge J. P.
Stadtmueller explained to the plaintiff that the Constituti
on does not prevent
the federal or state governments from limiting a convicted felon's civil rights,
including the right to cany a firearm the right to vote and the right to hold
public office. 1± (citing Dist_ofColumbia

Heller, 554 U.S. 570, 626-627

(2008); Richardson ILRamirez, 418 U.S. 24, 56 (1974); and Romerv
Evans.
517 U.S. 620, 624 (1996)). Judge Stadtmueller pointed out th«t
4
Case 2:19-cv-01001-PP Filed 11/14/19

Page 4 of 26 Document 8

limitations on one’s rights as a citizen are well-recognized collateral
consequences of a felony conviction, and the c

onstitutionality of those long-

standing consequences are not legitimately disputed.” Id.
In the third case, the plaintiff sued the United St

ates Congress, the
President of the United States, the governor of Wisconsin,
the mayor of
Milwaukee and the Social Security Administration.
SmithjLjJnitedStates
Congress. Case No. 13-cv-206. He alleged that the Social Security
Administration had refused to allow him t

o participate in a program due to

racism, and argued that he was being denied a laundry list of constitutional
rights “based on

pattern and practice of Racism directed against him as a
descendent of the slaves described by United States Supreme Court Chief
Justice Taney in Dred Scott v., Sanford, 60 U.S. (19 How.) 393,
15 L. Ed. 691.”
at Dkt. No. 1. Judge Charles N. Clevert,
Jr. dismissed all the defendants
except the Social Security Administration,

noting that the plaintiff had made no
specific allegations against any of the other defendants.
Id- at Dkt. No. 20.
Subsequently, when the plaintiff failed to
amend his complaint as to the Social
Security Administration, the court dismissed the entire
case as frivolous. Id. at
Dkt. No. 29.
Despite these decisions, the plaintiff filed

a fourth case in 2017, again

naming the United States of America and the State

of Wisconsin (the

defendants Judge Randa had told him were not

appropriate parties), alleging
that he was being denied a long list of constitutional rights because of his
status as a descendant of slaves. Smith v. United States. Case No
17-c.v-l 4-1-9;
5
Case 2:19-cv-01001-PP Filed 11/14/19

Page 5 of 26 Documents

Magistrate Judge David Jones dismissed this case
for lack of subject-matter
jurisdiction (as to the State of Wisconsin) and for failure to
state a claim,
reiterating the rulings of the prior judges and going into
more detail about
some of the plaintiffs specific allegati ons
not addressed by the other judges. Id.
at Dkt. No. 16.
The plaintiff filed his fifth case in 2018,

again suing the United States of

America and the State of Wisconsin. Smith v. United States Congress Case No.
18-cv-988. Just under two weeks after he filed the
complaint, he amended it,
naming the United States Congress and the Wisconsin Legislature as
defendants. Id, at Dkt. No. 3. In the amended complaint, the plaintiff argued
that the Commerce Clause to the United States Constit
ution did not authorize
Congress to regulate his right to have a firearm,
and that “Amendment 3(2) (3)”
of the Wisconsin Constitution
unconstitutionally barred him from running for
office. Id. at Dkt. No. 3. The amended complaint consisted of only two
paragraphs.
The United States Congress filed a motion to dismiss, id. at dkt. no. 6;
the Wisconsin Legislature did not. Judge Joseph granted the Cong
ress’s motion
to dismiss the amended complaint. Id, at Dkt. No. 15. The plaintiff appealed.
Id, at Dkt. No. 17. The Seventh Circuit dismissed the appeal, stating that
Judge Joseph did not have the authority to dismiss th
defendants because the Wisconsin Legislature had
authority to issue a final decision. Id, at Dkt. No.
Joseph vacated her order, and issued a

e case as to both

not consented to her

24. Accordingly, Judge

report recommending that

6
Case 2:19-cv-01001-pp Filed 11/14/19 Page 6 of 26 Document 8

court------

dismiss the case. Id. at Dkt. No. 25.

She also recommended that this court

deny the plaintiffs motion to file a

second amended complaint (idL at dkt. no.
21), which he filed after Judge Joseph had dismissed his
original complaint,
This court has issued an order dismissing Case No. 18-CV-988 and adopting
Judge Joseph's recommendation to deny the plaintiffs motion for leave to fii

ea

second amended complaint in that case.
The plaintiff filed the sixth case
in May of this year, again suing the
United States Congress and the Wisconsin Legislature.

Smith v. United

Congress. Case No. 19-cv-671. The allegations in that complaint were identical
to the allegations he sought to bring in the proposed second amended
complaint in the 2018 case—that the federal and state statutes prohibiting
felons from possessing firearms constituted
under Article I, §9, Clause 3 of the U.S.

unconstitutional bills of attainder

Constitution, as did the provision of

the Wisconsin Constitution that prohibits felons from holding elected office
unless pardoned, and that Wisconsin's prohibition

on his right to vote violated

the Fifteenth and Thirteenth Amendments.

— at Dkt- No. 1. Both the United
States Congress and the Wisconsin Legislature filed
motions to dismiss. The
court has issued an order dismissing that case for failure to state a claim.
The Current Complaint
The claims the plaintiff has raised in this

seventh complaint are not new.

Other judges have ruled on them, and this court has ruled
on them. He asserts
that his conviction and sentencing for threateni
ng Judge Reynolds constituted
violation of the Thirteenth Amendment's prohibition against sW-, ^-----7
Case 2:19-cv-01001-PP Filed 11/14/19

Page 7 of 26 Document 8

involuntary servitude. He alleges that because he finished serving that
sentence a long time ago, he is entitled to the restoration of all his

civil rights

(including his right to keep and bear arms
under the Second Amendment and
his rights under the Fifteenth Amendment). Finally, he appears to assert that
these alleged deprivations of his rights violate the Supreme Court’s decision in
Dred Scott v. Sanford. 60 U.S. 393 (1857).
III.

The United States Congress’s Motion to Dismiss
The United States Congress argues that the court should dismiss the

complaint because the United States Congress did not waive its sovereign
immunity, dkt. no. 5 at 7, and because it fails to state

a claim upon which this

court may grant relief, id. at 7-8. The Congress appears to acknowledge that it
is not the only defendant named in the complaint. IcL at 8 n.4 (asserting that
the plaintiffs challenge to the Wisconsin law

prohibiting felons from running

for elected office “is a claim directed at the State of Wisconsin, rather than the
U.S. Congress”). The court assumes that the United States Congress is asking
the court to dismiss it as a defendant, and is not seeking dismissal on behalf of
the Wisconsin Legislature.
A.

Sovereign Immunity

The United States Congress has asked the court to dismiss it

as a

defendant because it has not waived its sovereign immunity. Dkt. No. 5. The
court agrees that it does not have jurisdiction to entertain any claims
the United States Congress. The plaintiff has presented
that the United States Congress has waived

against

no evidence indicating

sovereignJmmunity^-F.D.I.C. v.

8
Case 2:19-cv-01001-PP Filed 11/14/19 Page 8 of 26 Document 8

~

Meyer, 510 U.S. 471, 475 (1994); Joseph v. Bd. of Regents of the Unjy. of Wis.
SEL, 432 F.3d 746, 748 (7th Cir. 2005). “Absent a waiver, sovereign immunity
shields the Federal Government and its

agencies from suit.” Meyer, 510 U.S. at

475. “ Sovereign immunity is jurisdictional in nature,”

id., which means that if
the Congress has not waived sovereign immunity, this court does not have
jurisdiction over the claim against it.
B.

Failure to State a Claim

A motion to dismiss under Federal Rule of Civil Procedure

12(b)(6)

challenges the sufficiency of the complaint, not its merits. Fed. R. Civ. P.
12(b)(6); Gibson v. City of Chi.. 910 F.2d 1510, 1520 (7th Cir. 1990). When
evaluating a motion to dismiss under Rule 12(b)(6), the court accepts
all well-pleaded facts in the complaint and draws all

as true

reasonable inferences from

those facts in the plaintiffs favor. AnchorBank, FSB v. Hofer. 649 F.3d 610,
614 (7th Cir. 2011). To survive a motion to dismiss under Rule 12(b)(6), a
complaint must allege “enough facts to state a claim to relief that is plausible
on its face.” Bell Atl. Corn v^Twomblv, 550 U.S. 544, 570 (2007).
“A claim has facial plausibility when the plaintiff pleads factual
that allows the court to draw the reasonable inference that th
liable for the misconduct alleged.” Ashcroft v. Tnhai

content

e defendant is

556 U.S. 662, 678 (2009).

In this context, “plausible,” as opposed to “merely conceivable or speculative,”
means that the plaintiff must include “enough details about the subject-matter
of the case to present a story that holds together.”

Carlson v. CSX Transp

Inc^ 758 F.3d 819, 826-27 (7th Cir. 2014) (quoting Swanson v. P.iKhQnfe n A
9
Case 2:19-cv-01001-PP Filed 11/14/19 Page 9 of 26 Document 8

614 F.3d 400, 404-05 (7th Cir. 2010)). “(TJhe proper question to ask is still
could these things have happened, not did they happen.” IcL at 827 (internal
quotation and citation omitted). The plaintiff “need not ‘show’ anything to
survive a motion under Rule 12(b)(6)—he need only allege.” Brown v Rod, 398
F.3d 904, 914 (7th Cir. 2005).
The plaintiff asserts that his conviction and sentence for threatenin
g
Judge Reynolds violated the Thirteenth Amendment. Regarding the United
States Congress, the court construes this as a
claim that in passing the law
criminalizing threats on the life of a federal judge, the Congress violated the
Thirteenth Amendment. That claim has

no merit. The Thirteenth Amendment

states that “ [n]either slavery nor involuntary servitude,

except as a punishment
for crime whereof the party shall have been duly convicted,
shall exist within the
United States . . . ■” The amendment specifically carves out lawful convictions
from the definitions of “slavery” and “involuntary

servitude.” “It is clear that

(the Thirteenth Amendment], besides abolishing f
orever slavery and involuntary
servitude within the United States, gives power to congress to protect all
persons within the jurisdiction of the United States from being in any way
subjected to slavery or involuntary servitude,
• • •” United States v, Harris 106 U.S. 629,

except as a punishment for crime

640 (1883) (emphasis added). The

Thirteenth Amendment did not prohibit Congress
from passing a law making it
a crime to threaten the life of a federal judge, and the plaintiff
convicted of and punished for that crime; the appellate

was duly

court affirmed the

10
Case 2-.19-cv-01001-PP Filed 11/14/19 Page 10 of 26 Document 8

conviction and sentence. The complaint does

not state a claim that the United
States Congress has violated the Thirteenth Amendment.
The plaintiff contends that he iis a direct descendant of slaves; he
appears to believe that because it was unlawful for his

ancestors to be

enslaved, the United States Congress had

no authority to deprive him of his
Second Amendment right to keep and bear
arms by making it a crime for felons
to possess firearms. This claim is meritless for several reasons.
First, there is
no relationship between the fact that the plaintiffs ancestors were slaves and
the fact that it is a federal crime for felons to possess firearms.
felons who cannot show that their

It is a crime for

ancestors were slaves to possess firearms.

The plaintiff has cited no authority for this claim, because there Isn’t
any.
Second, the plaintiff has not alleged that he has b een
convicted of being
a felon in possession in violation of 18 U.S.C. §922(g)(l), the federal felon-inpossession statute.
Third, to the extent that the plaintiff argues that Congress has violated
his Second Amendment rights by passing a law that permanently bars felons
such as himself for possessing firearms,
more than one judge in this district
has told the plaintiff that he is mistaken;
Judges Stadtmueller and Jones, as
well as this court, have cited Heller. 544 U.S.

at 626, in which the Supreme

Court held that limitations on a felon’s Second Amendment rights
were not
unconstitutional. See also McDonald —pity of Chi., Ill., 561 U.S. 742, 786
(2010).

11
Case 2:19-cv-01001-PP Filed 11/14/19 Page 11 of 26 Document 8

The plaintiff asserts that he is entitled to restoration of his Fifteenth
Amendment right to vote for the free person of his choice for elected
United States Congress correctly points out that to the
claim that the plaintiff has been denied hi

office. The

extent that this is a

s right to run for elected office, that

claim is directed at the Wisconsin Legislature; there is

no federal statute

prohibiting felons from running for office.
Finally, the plaintiffs assertion that the U.S.

Congress has passed laws
that somehow have violated the rights accorded to him by the Supreme Court’s
decision m Dred Scott v. Sandford is mystifying. The Dred Scott
the Constitution did not recognize black Ameri
States or their own State.” McDonald. 561 U.S.

case held that

cans as citizens of the United
at 807-808. The court assumes

that the plaintiff is African American. If that is true, Dred Scott afforded him
no
civil lights. It denied African Americans the rights accorded to other
Thankfully, section 1 of the Fourteenth Amend
Dred Scott, providing that any person born

ment overruled the holding in

or naturalized in the United States

is a citizen of the United States and of the state in which he

resides. Id. at 807.

The plaintiff has not alleged that the United States Congr
ess has passed any
laws that deny him his Fourteenth Amendment rights.
The court will dismiss the United States Congress as a defendant
because the complaint fails to state any claims

against it for which this court

may grant relief.

12
Case 2:19-cv-01001-PP Filed 11/14/19 Page 12 of 26 Document 8

IV.

The Claims Against the Wisconsin Legislature
The Wisconsin Legislature has not filed

an appearance or answered the

complaint, although the plaintiff filed the complaint four months

ago. It is

possible that the plaintiff has not properly served the legislature. The court
notes that on the last page of the complaint, the plaintiff certified that he had
“either personally served or served by United States mail,

postage prepaid,” a

copy of the complaint on “Wisconsin Attorney General Josh Kaul,

114 East

State Capitol, Madison, WI 53702.” Dkt. No. 1 at 3. In one of the plaintiffs
previous c ases, the Wisconsin Legislature pointed out that state law (Wis
. Stat.
§801.11 (3)) requires personal service, not mail. Smith v. United state*
Congress, Case No. lS-cv-988, Dkt. No. 28 at 4-5. But the Wisconsin
Legislature has not filed a motion under Fed. R. Civ. P. 12(b)(5) to dismiss for
failure to properly serve.
Federal Rule of Civil Procedure 4(m) says that if a plaintiff doesn't

serve a
defendant within ninety days after the complaint is filed, “the court—on motion
or on its own after notice to the plaintiff-must dismiss the action without
prejudice against the defendant or order that service be made within

a specified

time.” More than ninety days has passed since the plaintiff filed hi

s complaint.
If he has not effected proper service on the Wisconsin Legislature, the
court
must dismiss, unless the plaintiff can show good cause for his failure to
properly serve the legislature. But the court does not know whether the
plaintiff has effected proper service.

13
Case 2:19-cv-G1uui-pP Filed 11/14/19 Page 13 of 26 Document 8

As the court will discuss below, it believes the plaintiff has abused the
federal judicial system by repeatedly raising the

same claims over a period of

years but characterizing th em differently and asserting them against different
defendants. The claims the plaintiff has brought against the Wisconsin
Legislature in this case—that it has deprived him of his right to keep and bear
arms and abridged or denied him his right to vote based
condition of previous servitude—are claims that

on his race or a

courts, including this one,

have dismissed in his other cases.

Under these circumstances, the court
considers whether it has the authority to dismiss the plaintiffs claims
against
the Wisconsin Legislature
sucl sponte that is, without a motion from the
Wisconsin Legislature.
A federal court may hear a case only if it has “subject-matter
jurisdiction” over the claims. A federal court must “
entertain a complaint
seeking recovery under the Constituti on or
laws of the United States, unless
the alleged federal claim either 'clearly appears to be immaterial
and solely
made for the purpose of obtaining jurisdiction or where such a
claim is wholly
insubstantial and frivolous.’” Ricketts v. Midwest Nat. Bank- 874 F.2d 1177
1180 (7th Cir. 1989) (quoting Bell

v^Hood, 327 U.S. 678, 681-82 (1946)).

When a district court determines that a
complaint is undermined by
either of these deficiencies, the

cfaLT’ttS “t£fr

T P°"?r to

and unsubstantial as to
1 novii ,
* oi merit. Hagans v.
Lavine, 415 U.S. 528 536 f
v. Newburyport, 193 U.S.* 561, 579^ ”f TlM^T^th ’
determination of whether the merits of a comilL? ’
.are ■..sufficiently
14
Case 2:19-cv-01001-PP Filed 11/14/19

Page 14 of 26 Document 8

SwcTctlou1iSha,fthre>h0W qUeS‘i0n Which must be addressed by a

legal d™^^ “&itcss,r pfr°rfdbto r
sfra ciato3272aof6“[the
(Whether the complaint states a cause of action upon which relief
can be granted is a question of law . . . which must be decided after
controversy"^
^ aSSUmed jurisdiction over the
Id.
The problem, as the Seventh Circuit has noted, is that “[t]he upshot of
this doctrine is that it places an obligation on the district court to determine its
jurisdiction based on an assessment of the complaint that is
similar to the analysis required by a motion under Fed.

confusingly

R. Civ. P. 12(b)(6).” Id.

(citations omitted). Tiying to clarify that confusion,

the Seventh Circuit has
articulated a three-tiered review process for determining whether a claim is so
frivolous or without merit that it must be dismissed for lack of subject-matter
jurisdiction. “At the first tier of review, the district court must

assess the

substantiality of the constitutional or federal statutory allegations of the
complaint to determine . . . whether they are Wholly insubstantial and
frivolous.’” Id. at 1189

smissed on these grounds—a claim must be “wholly ” “obviouslv ”
: ,p

of merit

court

WriSiatelMfflerdU&eS
<?at th* fpwral °Iaim ‘S Wlthout
S^g3
4564°R£ar
and merit’ I3B
15
Case 2:19-cv-01001-PP Filed 11/14/19 Page 15 of 26 Document 8

teLlit rfthcoufs charge then-is *°review the face of the complaint

subject matter jurisdiction, summons need not be issued bea
emphasizing that a plaintiff need only make a
*' a ! S

pe ^2“8 r,he rt] 1

-

construed in the 'sS TLf 8fflT«adC shail^

t?r?^TVhir^

substantiality review nf l L 72 ’ ls,aPPllcable to a district court’s

SSEHS?
Cir. 1982)) §4 (qUOtmg Caruth v- Pinkney, 683 F.2d 1044,

1050 (7th

Id. at 1182-83.
To determine whether to dismiss the plaintiffs claims against the
Wisconsin Legislature sua sponte for lack of subject-matter jurisdiction
, then,
the court must liberally construe the claims, and decide

whether they are

“absolutely devoid of merit” or “no longer open to discussion,” whether they are
“wholly,” “obviously” or “plainly” frivolous.

The court concludes that they are.
As to the Wisconsin Legislature, the plaintiff alleges that it h
as passed
laws that deprive him of his Second Amendment right to keep and bear
arms.
Dkt. No. 1 at 2. This complaint does not identify those law
s. The plaintiff
identified specific Wisconsin laws in at least one
of his prior cases, but he does
16
Case 2:19-cv-01001-PP Filed 11/14/19 Page 16 of 26 Document 8

not do so in this complaint. So the court is left to guess what laws the
Wisconsin Legislature allegedly has passed that violate the Second
Amendment. Even if the court relies on its knowledge of the plaintiffs previous
cases, and assumes that the plaintiff is referring to the Wisconsin laws that
make it a crime for felons to possess firearms,

any claim that such laws violate
the Second Amendment is “no longer open to discussion.”
Other courts have
told the plaintiff that. They have told him about the Supreme Court’s decision
in Heller. 544 U.S. at 626, in which the Supreme Court held that limitations
on
a felon’s Second Amendment rights were not unconstitutional.
See also
McDonald. 561 U.S. at 786. The Supreme Court and the Seventh Circuit have
resolved the question of whether a law prohibiting felons from possessing
firearms violates the Second Amendment

it does not. Even liberally construing

the plaintiffs claim, the court finds that years of controlling case law mandate
tlm conclusion that the plaintiffs Second Amendment claim is plainly
insubstantial and frivolous.
The same is true of the plaintiffs claim that the Wisconsin Legislature
violated his Fifteenth Amendment “right to vote for the free person of his choice
for elected office.” Dkt. No. 1 at 2. Again,

the plaintiff has not identified which

Wisconsin laws, or which provisions of the Wisconsin Constitution,
violate the Fifteenth Amendment. Even if he had

he believes

specifically named the

Wisconsin law that prohibits felons from voting until they have had thei

17
Case 2:19-cv-01001-PP Filed 11/14/19 Page 17 of 26 Document 8

r civil

rights restored,1 or the Wisconsin co
from standing for elected office, the

nstitutional provision that prohibits felons

superior courts have resolved those

arguments, as well.
Forty-five years ago, in Richardson

vjgamirez, 418 U.S. 24, 56 (1974),

the Supreme Court held that it did

not violate the Constitution for a state to
“exclude from [the voting) franchise convicted felons who have
completed their
sentences and paroles.” Judge Stadtmueller told the plaintiff that back in
2008, as have other judges since. As for laws barring felons from

running for

elective office, “‘[t]he right t o run for or hold public office is not a fundamental
right, and felons are not a suspect class; thus, a ban
on felons running for
elective office is valid if it is rationally related to
a legitimate state interest.”
Parker v. Lyons 757 F.3d 701, 707 (7th Cir. 2014) (citing Brazil-Breashears ^
gilandic. 53 F.3d 789, 792-93 (7th Cir. 1995); Talley v. Lane, 13 p.3d 1031,
1034 (7th Cir. 1994); Clements v. Flashy 457 u s 957>
Nor has the plaintiff identified

963 (1982)).

any discriminatory reason for the

Wisconsin Legislature to pass these laws or ratify these constitutional
provisions. The plaintiff asserts that he is

a descendant of slaves, implying
(although not stating) that he is African American.
While he does not identify

pei

srence years ag°-if

prohibiting felons from voting until tw ated
rights by passing a law
clear to the court how the plaintiff has st 8jr
rights rest°red, it is not
Wis. Stat. §304.078® savs
a”8 t0 ,challen«e
a statute.

6.02(l)(b), his or hefright to toL irrestoreVwh^fied ^ V0Ung Under s
term of imprisonment or probation ^0 crime
^mUTOfingtl0n‘ ^the Plaintiff has comPleted his

to'thT^ ““
sentence, he is not barred

18
Case 2:19-cv-01001-PP Filed 11/14/19 Page 18 of 26 Document 8

the laws or constitutional provisions at issue, he has not alleged that those
laws or provisions apply only to African Americans, or

only to persons of color.
And he has not argued that the Wisconsin Legislature has
no rational basis for
prohibiting felons from voting or standing for elected office.
There may be other grounds for dismissal

were the court to allow these

claims to proceed—improper service, sov
ereign immunity, suit against an entity
that is not suable under 42 U.S.C. §1983.
But the question at this threshold
level is whether the plaintiffs claims
against the Wisconsin Legislature are so
obviously frivolous that they are not substantial enough for the
court to
exercise subject-matter jurisdiction over them,
Recognizing that the court
should dismiss
sua sponte on substantiality grounds only in extraordinary
circumstances, the court concludes that the plaintiffs

claims against the
Wisconsin Legislature are so obviously frivolous that the
court cannot exercise
subject-matter jurisdiction over them.
The court will dismiss the claims
V.

against the Wisconsin Legislature.

The United States Congress’s Motion to Consolidate
The court has issued separate orders dismissing the 2018 case and the

May 2019 case. The court will deny the United States Congress’s

motion to

consolidate as moot.
VI*

States Congress’s Motion Requesting an Order to
rohibit the Plaintiff From Filing Future Pro Se Suits
The right of access to federal courts is not absolute

F.3d 903, 905 (7th Cir 2003) (citing United States
gourt for Tavlur Ctv.. 73 "F

aao

(7^ CIl

• In re Chapman, 328

ex rel. Verdone v. Circuit

1995)). Individuals are “only

19
Case 2:19-cv-01001-PP Filed 11/14719 Page 19 of 26 Document 8

entitled to meaningful access to the

courts.” Id. (citing Lewis v. Casey 5ig U s
343, 351 (1996)). “Courts have ample authority to
curh abusive filing practices
by imposing a range of restrictions.”
Chapman v. Exec. Comm 324 Fed. App’x
500, 502 (7th Cir. 2009) (citations omitted). The All Writs Act,

§1651(a), gives district courts the “

28 U.S.C.

inherent power to enter pre-filing orders

against vexatious litigants.” Orlando Residence T.tH
F. Supp. 2d 813, 816-17 (E.D. Wis.

v, GP Credit Co.. LLC 609

2009) (citing Molski v. Evergreen Tlvn^h,

Corp.. 500 F.3d 1047, 1057 (9th Cir. 2007)). “A filing restriction
however, be narrowly tailored to the

must,

type of abuse, and must not bar the

courthouse door absolutely.” Chapman

324 Fed. App'x at 502 (citations

omitted). “Courts have c onsistently approved filing bars that permit Iitig
ants
access if they cease their abusive filing practices," but have “rejected as
overbroad filing bars in perpetuity.” Id, (citations omitted).
The court agrees with the United States Congress that the plaintiffs
filings have become abusive. He has b

rought seven iterations of the same
claims m the last eleven and a half years
—two in this year alone. Multiple
judges have rejected his claims
as meritless and frivolous, and the Seventh
Circuit has affirmed on each appeal. Yet the plaintiff p
ersists, each time
consuming valuable judicial resources in an
understaffed district with a heavy
caseload. The court agrees that
a sanction is appropriate.
In 1995, the Seventh Circuit decided Support Systems Intern
, Inc, v.
Mack. 45 F.3d 185 (7th Cir. 1995). The author of the deci
sion, Judge Terence
Evans, thoroughly analyzed situations such as this
one, where a litigant has
20

Case 2:19-cv-01001-PP Filed 11/14/19

Page 20 of 26 Document 8

engaged in vexatious and abusive behavior. Judge Evans explained that

once a

court determined that a litigant was abusing the judicial system, it needed to
determine “the most effective form in which to

exercise [its authority to curb
abuse], consistent with the Supreme Court's admonition that
any sanction
imposed by a federal court for the abuse of its processes be t
ailored to the
abuse.” Id, at 186 (citing In re Anderson
511 U.S. 364 (1994); Sassower v.
Mead Data Central. Tnr. 510 U.S.

4 (1993)). Judge Evans stated that to make

this determination, a court “ should consider a range of possible alternatives.”
He noted that neither monetary sanctions

nor “repeated rejection of his
groundless, fraudulent filings” had stopped Mack.
Mi He also observed that
courts frequently imposed a sanction enjoining a frivolous litigant fr
om filing
new complaints or pleadings without the court’s permission
Mi Because that
latter sanction put the burden on the
court to review each new pleading, and
allowed] the barrage to continue, just with different labels

on the filings and
perhaps with fewer judges having to read the filings,” the Mack court elected to
direct the clerks of all federal courts in the

circuit “to return any unfiled

papers” that Mack tried to file, “unless and until he pays in full the sanctions
that have been imposed against him.” Id, The court made

an exception for
criminal cases in which Mack might be a defendant and for habeas
applications. Mi It also provided that

once two years had expired, Mack could
file a motion asking the Seventh Circuit to
modify or rescind the order. IcL
The United States Congress’s motion seeks

only one sanction—a

permanent bar to the plaintiff ever filing any pro se pleading in this rfi.tw,*- 21
Case 2:19-cv-01001-PP Filed H/14/19

Page 21 of 26 Document 8

The plaintiff objects that the

request amounts “to stripping the] plaintiff” of his
First Amendment right to petition for redress
of grievances. Dkt. No. 6 at 8. The
court agrees. A permanent bar to

any pleadings is not a sanction narrowly

tailored to addressing the particular abuse in which the plaintiff has
engaged.
There are more narrowly tailored sanctions

available.

One option is for the court to impose

a monetary sanction, and to bar the
plaintiff from filing any further pleadings or lawsuits related to the plaintiffs
claims based on his status as the descendant of slaves and his

status as a
convicted felon until he pays the monetaiy sanction. This option would
not
constitute a permanent bar, but it also would
not prevent the plaintiff from refiling the same claims once he pays the sanction. And as he notes in his
response to the United States Congress's motion, the plaintiff “pays the
hundreds of dollars filing fee each time he files a grievance against the
government.” Iff In the span of three months this year, the plaintiff filed two
civil cases, each carrying a $400 filing fee. The court would have to i
impose a
substantial monetary penalty—well in excess of $800
—to curb the plaintiffs
abuse.
The court could enter an order barring the plaintiff from filing any
pleadings or complaints raising claims based
slaves or his status as a convicted felon,

on his status as a descendent of

The bar would relate only to claims

that courts in this district have rejected as meritless
the court could give the plaintiff th

on seven occasions. And

e opportunity to seek relief from the bar

after a specified time.
22

Case 2:19-cv-01001-PP Filed 11/14/19 Page 22 of 26 Document 8

The plaintiff contends that “ [e]ven Pharoah did not limit the number of
times Moses could present his grievance; is the U.S.A. Congress iess fair to
descendants of American Slaves th an
Pharoah was to the Jews?” Id. Whatever
ancient Egyptian laws may have said

on the subject, modern American 1 aw
prohibits a party from raising the same claims
against the same parties over
and over. The doctrine of resjudiciata “bars an action if there was a final
judgment on the merits in an earlier case and both the parties and claims in
the two lawsuits are the same.” Bernstein v

Bankert, 733 F.3d 190, 224 (7th
Cir. 2013) (citations omitted). The doctrine of claim preclusion, *
which operates
to conserve judicial resources and promote finality
, applies when a case
involves the same parties and the
same set of operative facts as an earlier one
that was decided on the merits.” Id.
Mi at 225 (citation omitted). Finally, the
doctrine of issue preclusion, “

a narrower doctrine than claim preclusion,

prevents litigants from re-litigating an issue that has already been decided i

na

previous judgment.” Id. (citation omitted).
Even if the claims the plaintiff has brought in this lawsuit had merit (and
they don’t), future attempts to bring th e same
claims likely would run afoul of
one or more of these doctrines. If the plaintiff tried to bring a new lawsuit with
identical claims that he’d raised in

a prior suit against the same defendants

he d sued in a prior suit, he would be barred by

res judicata. If he tried to bring

a new lawsuit against parties he’d sued before, involving the same set of
operative facts (his status as a descendant of slaves and

a convicted felon), the
suit would be barred by claim preclusion. If he tried to brin
g_a_new_Ia.wsult——■
23
Case 2:19-cv-01001-PP Filed 11/14/19 Page 23 of 26 Document 8

raising the identical issue to an issue he’d

raised in a prior lawsuit, the suit

would be barred by issue preclusion.
Given this, it seems to the court that
filing further lawsuits grounded in his

a bar preventing the plaintiff from

status as the descendant of slaves or his

status as a convicted felon, containing a provision allowing the plaintiff to ask
the court to review or reconsider the bar after
a certain period, would be a
sanction narrowly tailored to address the

specific abuse in which the plaintiff

has engaged.
VII.

Conclusion
The court DENIES AS MOOT the United States Congress's motion to

consolidate cases. Dkt. No. 5(1).
The court GRANTS the United States Congress’s motion to dismiss

. Dkt.

No. 5(11).
The court GRANTS IN PART the United States Congress's motion
requesting an order prohibiting the plaintiff from initiating further p

ro se suits.

Dkt. No. 5(III).
The court ORDERS that the plaintiff is BARRED from fil

ing any further
pleadings or lawsuits in the Eastern District of Wisconsin bringing claims (in
any form) arising out of his status as a descendant of slaves or his
status as a
convicted felon. This includes any claims that the federal government
or its
agencies, officials or representatives or the State of Wisconsin or its agencies,
officials or representatives have passed laws or ratified
constitutional
provisions regulating the conduct of convicted felons i n violation of the law
S-QT24
Case 2:19-cv-01001-PP Filed 11/14/19 Page 24 of 26 Document 8

Constitution of the United States. The court ORDERS that the plaintiff is
authorized to submit to this court, no
earlier than three years from the date of
this order, a motion to modify or rescind the order. The court ORDERS that if
the plaintiff violates this bar, he may be subject to sanctions imposed by
any
judge in this district.
The court ORDERS that the claims

against the United States Congress

and the Wisconsin Legislature are DISMISSED, and that this case is
DISMISSED. The court will enter judgment accordingly.
This order and the judgment to follow are final.
A dissatisfied party may
appeal this court’s decision to the Court of Appeals for the S
eventh Circuit by
filing in this court a notice of appeal within 30 days of the entry of judgment.
See Fed. R. of App. P. 3, 4. This court may extend this deadline if

a party timely

requests an extension and shows good cause or
excusable neglect for not being
able to meet the 30-day deadline. See Fed.
R. App. P. 4(a)(5)(A).
Under limited circumstances, a party may ask this court to alter or
amend its judgment under Federal Rule

of Civil Procedure 59(e) or ask for relief
from judgment under Federal Rule of Civil Procedure 60(b)
• Any motion under
Federal Rule of Civil Procedure 59(e) must be filed within 28 day
s of the entry
of judgment. The court cannot extend this deadline. S “
See Fed. R. Civ P. 6(b)(2).
Any motion under Federal Rule of Civil Procedure
60(b) must be filed within a
reasonable time, generally no
more than one year after the entry of the
judgment. The court cannot extend this deadlin

e. See Fed. R. Civ. P. 6(b)(2).

25

Case 2:19-cv-01001-PP Filed 11/14/19 Page 25 of 26 Document 8

The court expects parties to closely review all applicable rules
determine, what, if any, further action is

and

appropriate in a case.

Dated in Milwaukee, Wisconsin this 14th day of November, 2019.
BY THE COURT:

HOW. PAMELA PEPPER
^
Chief United States District Judge

26
Case 2:19-cv-01001-PP Filed 11/14/19

Page 26 of 26 Document 8

M
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
BARRY J. SMITH, SR.,
Plaintiff,
Case No. 18-cv-988-pp
v.
UNITED STATES CONGRESS, and
WISCONSIN LEGISLATURE,
Defendant.
ORDER DENYING PLAINTIFF’S MOTION TO ALTER OR AMEND JUDGMENT
(DKT. NO. 39)
This is the fifth case filed by the plaintiff in this district alleging various
violations of his constitutional rights based on his status as a convicted felon.
The court adopted the recommendation of Magistrate Judge Nancy Joseph,
dkt. no. 25, denied the plaintiffs motion for leave to file a second amended
complaint, dkt. no. 21, granted the United States’motions to dismiss, dkt. nos,
29, 32, and dismissed the case, dkt. no. 35. Soon after the court entered
judgment, the plaintiff filed a motion to alter or amend judgment. Dkt. No. 39.
Because the plaintiff has failed to show that he is entitled to relief, the court
will deny the motion.
The plaintiff filed his motion under Federal Rule of Civil Procedure 59(e),
which allows a party to file a motion to “alter or amend a judgment” within
twenty-eight days of the date the judgment is entered. The plaintiff filed his
motion on December 10, 2019—within the twenty-eight-day period. To prevail
1
Case 2:18-cv-00988-PP Filed 06/01/20 Page 1 of 3 Document 43

on a Rule 59(e) motion, a party must clearly establish “(1) that the court
committed a manifest error of law or fact, or (2) that newly discovered evidence
precluded entry of judgment.” Cincinnati Life Ins. Co. v. Bevrer. 722 F.3d 939,
954 (7th Cir. 2013) (quoting Blue v. Hartford Life & Accident Tn« Co.. 698 F.3d
587, 598 (7th Cir. 2012)). A “manifest error” is the “wholesale disregard,
misapplication, or failure to recognize controlling precedent.” Oto v.
Metropolitan Life Ins. Co., 224 F.3d 601, 606 (7th Cir. 2000) (quoting Sedrak v.
Callahan, 987 F. Supp. 1063, 1069 (N.D. Ill. 1997)). “A ‘manifest error’is not
demonstrated by the disappointment of the losing party.” Id
The plaintiff has not identified any newly discovered evidence. He
disagrees with the court’s analysis, firmly convinced that Congress has no
authority to regulate his right to cany a gun after he has served his sentence.
That disagreement does not justify altering or amending the judgment under
Rule 59(e). The court explained the doctrine of sovereign immunity and why the
plaintiff failed to state a claim, provided the plaintiff with the case law that
allows the government to keep firearms away from those convicted of serious
crimes, and pointed out that the plaintiff failed to properly serve the Wisconsin
legislature. Dkt. No. 37 at 8-11. The plaintiff has not shown that the court
disregarded, misapplied or failed to recognize controlling precedent. Citing
many constitutional amendments, the plaintiff makes the same arguments he
raised in his complaint and in opposition to the motion to dismiss, The court
has considered, and rejected, those arguments. There is no basis for the court
to grant the plaintiffs motion.2
Case 2:18-cv-00988-PP Filed 06/01/20 Page 2 of 3 Document 43

The court DENIES the plaintiffs motion to alter or amend judgment. Dkt.
No. 39.
Dated in Milwaukee, Wisconsin this 1st day of June, 2020.
BY THE COURT:

HON. PAMELA PEPPER
Chief United States District Judge

3
Case 2:18-cv-00988-PP Filed 06/01/20 Page 3 of 3

Document 43

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
BARRY J. SMITH, SR.,
Plaintiff,
v.

Case No. 19-cv-671-pp

UNITED STATES CONGRESS,
and WISCONSIN LEGISLATURE,
Defendants.
ORDER DENYING PLAINTIFF’S MOTION TO ALTER OR AMEND JUDGMENT
(DKT. NO. 17)
This is the sixth case filed by the plaintiff in this district alleging
violations of his constitutional rights based on his status as a convicted felon.
On November 14, 2019, the court granted the Wisconsin Legislature’s
motion to dismiss, granted the United States Congress’s motions to dismiss,
denied as moot the Congress’s motions to consolidate cases, denied without
prejudice Congress’s motions to bar the plaintiff from further filings and
dismissed the case. Dkt. No. 15. Less than a month after the court entered
judgment, the plaintiff filed this motion to alter or amend that judgment. Dkt.
No. 17. The court will deny the motion.
The plaintiff filed his motion under Federal Rule of Civil Procedure 59(e);
that rule allows a party to file a motion to “alter or amend a judgment” within
twenty-eight days of the date the judgment is entered. To prevail on a Rule
59(e) motion, a party must clearly establish “(1) that the court committed a----

Case 2:19-cv-00671-PP Filed 09/08/20 Page 1 of 3 Document 21

manifest error of law or fact, or (2) that newly discovered evidence precluded
entiy of judgment.” Cincinnati Life Ins, r.n v^Beyrer, 722 F.3d 939, 954 (7th
Cir. 2013) (quoting Blue v. Hartford Life & Accident Ins
(7th Cir. 2012)). A “manifest error” is the “

-C.Q., 698 F.3d 587, 598

wholesale disregard, misapplication,

or failure to recognize controlling precedent.” Oto v. Metro. Life Ins. Cn 224
F.3d 601, 606 (7th Cir. 2000) (quoting Sedrak

v. Callahan. 987 F. Supp. 1063,

1069 (N.D. Ill. 1997)). “A “manifest error' is not demonstrated by the
disappointment of the losing party.” Id.
The plaintiff timely filed his motion, but he has not identified

any newly

discovered evidence, He disagrees with the court’s analysis, arguing that
because members of Congress are not “the Sovereign of the United States,”
they cannot regulate his ability to possess a firearm after he has served his
sentence. Dkt. No. 17 at 3, 9. That disagreement is not

a manifest error of law

requiring the court to alter or amend the judgment under Rule 59(e).
In its order dismissing the case, the court explained that because the
defendants had not waived their sovereign immunity, the court no jurisdiction
over the plaintiffs claims. Dkt. No. 15 at 6, 9. The court clarified that even if it
had jurisdiction, it would have dismissed the United State

s Congress as a

defendant because the plaintiffs claim against it was without merit. Id. at 7.
Similarly, the court stated that it would have denied th

e claim against the

Wisconsin Legislature on the merits had the Legislature waived its immunity.
—

8* The plaintiff has not demonstrated that th e court disregarded,

misapplied or failed to recognize controlling precedent. Citing

various:

Case 2:19-cv-00671-PP Filed 09/08/20 Page 2 of 3 Document 21

constitutional amendments, the plaintiff makes
he raised in his complaint and in

many of the same arguments

opposition to the motions to dismiss. The

court has considered, analyzed and rejected those
not demonstrated that the court committed

arguments. The plaintiff has

a manifest error in law or in fact,

or that its decision to dismiss the case was otherwise incorrect. There is

no

basis for the court to grant the plaintiffs motion to alter
or amend the
judgment.
The court DENIES the plaintiffs motion to alter or

amend judgment. Dkt.

No. 17.
Dated in Milwaukee. Wisconsin this 8th day of September, 2020.

BY THE COURT:

HON. PAMELA PEPPER
Chief United States District Judge

Case 2:19-cv-00671-PP Filed 09/08/20

Page 3 of 3 Document 21

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

BARRY J. SMITH, SR.,
Plaintiff,
v.

Case No. 19-cv-1001-pp

UNITED STATES CONGRESS,
and WISCONSIN LEGISLATURE,
Defendants.

ORDER DENYING PLAINTIFF’S RULE 59(e) MOTION TO ALTER OR AMEND
JUDGMENT (DKT. NO. 10)

This is the seventh case filed by the plaintiff in this district alleging
violations of his constitutional rights based on his status as a convicted felon.
On November 14, 2019, the court denied as moot the United States
Congress’s motion to consolidate cases, granted Congress’s motion to dismiss,
granted in part Congress’s motion for an order precluding the plaintiff from
initiating further pro se suits and dismissed the case. Dkt. No. 8. Less than a
month after the court entered judgment, the plaintiff filed this motion to alter
or amend that judgment. Dkt. No. 10. The court will deny the motion.
The plaintiff filed his motion under Federal Rule of Civil Procedure 59(e);
that rule allows a party to file a motion to “alter or amend a judgment” within
twenty-eight days of the date judgment is entered. To prevail on a Rule 59(e)
motion, a party must clearly establish “(1) that the court committed a manifest
error of law or fact, or (2) that newly discovered evidence precluded entry of
1
Case 2:19-cv-01001-PP Filed 09/08/20 Page 1 of 3 Document 14

judgment. Cincinnati Life Ins. r.n

v^eyrer, 722 F.3d 939, 954 (7th Cir. 2013)

(quoting Blue v. Hartford Life ft, Accident lns.

Co., 698 F.3d 587, 598 (7th Cir.

2012)). A “manifest error” is the wholesale disregard, misapplication,
or failure
to recognize controlling precedent.” Qto v. Metro. Life Ins Pn 224 F.3d 601,
606 (7th Cir. 2000) (quoting Sedrak v.

Callahan, 987 F. Supp. 1063, 1069

(N.D. Ill. 1997)). “A ‘manifest error’ is not demonstrated by the disappointment
of the losing party.” Id.
The plaintiff timely filed his motion,

but he has not identified any newly

discovered evidence. He disagrees
with the court’s analysis, arguing that
Congress is not “the Sovereign of the United States”

and cannot regulate his

ability to possess a firearm after he h

as served his sentence. Diet. No. 10 at 3,
9. That disagreement does not constitute a “manifest error of law” that would
require the court to alter or amend its judgment.
In its order dismissing the case, the court explained that it “
it [did] not have jurisdiction to

agree[d] that

entertain any claims against the United States

Congress” because Congr ess enjoys sovereign immunity. Dkt. No. 8 at 8. The
court observed that the plaintiff had presented no
evidence that Congress had
waived that immunity. Id. The court also found that th
e plaintiffs claims
against Congress were meritless.
at 10. As to his claims against the
Wisconsin Legislature, the
court concluded that “years of controlling case law
mandatefd] the conclusion that [the claims were] plainly insubstantial
and
frivolous;” the court found them “so

obviously frivolous that the court [could

not] exercise subject-matter jurisdiction”

and-sua-spoftte-dismlssed the claims.

2

Case 2:19-cv-01001-PP Filed 09/08/20

Page 2 of 3 Document 14

IsL at 17-19. Noting the likely application of res judicata, th

e court explained its
determination that barring the plaintiff from filing further actions based on his
status as either the descendant of slaves

or as a convicted felon "would be a

sanction narrowly tailored to address the

specific abuse in which the plaintiff

has engaged.” Id. at 23-24.
The plaintiff has not shown that the

court disregarded, misapplied or
faffed to recognize controlling precedent. Citing various constitutional
amendments, he rehashes many of the

arguments that he raised in his

complaint and in opposition to the motions to dismiss,
considered and rejected those

The court has

arguments. The plaintiff has not convinced the

court that it committed a manifest error in law

or in fact. There is no basis for
the court to grant the plaintiffs motion to alter or
amend the judgment.
The court DENIES the plaintiffs motion to alter
or amend judgment. Dkt.
No. 10.
Dated in Milwaukee, Wisconsin this 8th day of September, 2020.
BY THE COURT:

HON. PAMELA PEPPER "
Chief United States District Judge

3

Case 2:19-cv-01001-PP Filed 09/08/20

Page 3 of 3 Document 14

8

Cash: 2u-^ybb

Document: IB
Hied: 1)3/1 d/zuzi Pagfes: 4
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

Mtttfefr plates Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted March 12,2021’
Decided March 16,2021
Before
WILLIAM J. BAUER, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
Nos. 20-2987 & 20-2988
BARRY SMITH, SR.,
Plain tiff-Appellan t,

v.
UNITED STATES CONGRESS and
WISCONSIN LEGISLATURE,
Defendan ts-Appellees.

Appeals from the United States
District Court for the Eastern
District of Wisconsin.
Nos. 19-cv-671-pp & 19-cv-1001-pp
Pamela Pepper,
Chief Judge.
ORDER

Barry Smith, a convicted felon who has completed his sentence, has sued the
United States Congress and Wisconsin's legislature in an effort to overturn federal and
state laws that restrict him from possessing firearms and holding elected office. The
district court dismissed the suit. We affirm because Congress and the Wisconsin
Legislature are not proper defendants, and, in any case, Smith's claims are meritless.

* We have agreed to decide the case without oral argument because the briefs and
ird-adequatel-y-presenf-ther-a;
significantly aid the court. Fed. R. App. P. 34(a)(2)(C).

Case: 20-2988

Document: 18

Filed: 03/16/2021

Pages: 4

Nos. 20-2987 & 20-2988
Page 2
quest

appeal are

si*‘h ^ seventh in Smith's

w&;srrP~r
United States, No. 08-2205 (7th Cir Nnv f, onnav c ui „
' 2°°8)/ *d' Smith v‘
No. 08-cv-956 (E.D. Wis Nov 10 2008) aVrf c '
p P™Sldmt °fthe United States>
No. 09-3419 (7th Cir Tan 25 201 nw ' # \ l *
^ °ftke UniUd States'
consti fi i ti nn a 1 • \ c '25/ 2°W (summanlY affirming dismissal of "absurd"

Sf S.T T’ r■* “ •

we

“L^C°T
r ^I:eglslature'the
CiVi,‘rightS court explained, is not a "person" unit« us C
4§91US58nT™,leCtt0Suitunder^‘^tute. Witlv.Mil. Deft o/Statfpoli^
Surt his Sat ZZ2 fte C°Urt 3dded'Smift W0U“ ^e ^ ol Srits:
biU of attainder. United States v. Hemming"258 F 3d 587 \9Z9smh r- ” ftrearm is not a
bar on felons holding elected office It, Mm
'
95 (7th ar'2001>- ^«*

In the second case, No. 19-cv-1001; Smith
,^
, “Sue8 generally that the defendants
violated the Second, Thirteenth
and Fifteenth Amendments and that collateral

Case: 20-2988

Document: 18

Filed: 03/16/2021

Pages: 4

Nos. 20-2987 & 20-2988
Page 3

he could move to

practices. Sec Support Systems Intern., Inc. , UacK 45 y.3d 185j lg6
On appeal, Smith renews several constitutional arguments He attacks th*

=S5S5====-

iSs^r COnViC“0nS-his reP'y brief, he assert for the first time that the

Act, 5 U.S.C§ 702SreSS Wa,Ved ItS SOVereign immunity in the Administrative Procedure
these appellees. The Umt^aST(^d

“T

without its consent. Meyer, 510 U.S at 475; BMfy

'
S”**0 Ca™ot be sued
v. United States, 123 F.3d 466,467

argument about the Administrative Procedureslrt raised

^^Z^e“eWi2Z; L

^^

I n

S amtmy

• y S C § ^^“-iew of

an arm of the state of Wisconsin
§1983. Win, 491 U.S. at 71; Selesta , Zl 878 F.3d

WaS ROt a proPer defendant. As

disclaims reliance on § 1983, but no other law could conceivably author^

1«^58 F.3d a, 594-93, and the reasoning of Hemmings applies to the VWsconsto

Case: 20-2988

Document: 18

Filed: 03/16/2021

Pages: 4

Nos. 20-2987 & 20-2988
Page 4
statute,

consequences are a recognized and valid partofT
V. Kemna, 523 U.S. 1,

^

forfeited eifterb^fadtagto pres^dftem toft6 Tf™*

argUments that Smith

906 Fid M S' 201^1 S °PTS bdef ta ftta
abused the judicial process 14^' ^ ^ WitH tHe ^
C0Urt that Smith has
does not pay this fine to fte cSL^'' T u" ^ ^ ^ °f $2'°°°; if he
barring Smith from filing future litia « 8 C°Ur Wlthin 14 da^S/ we wiU enter an order

Systems Mem «St ^ ^

applications
move this court in tee years to Jdnd border

^

* "* dra*

&W~t

sjf S™'
“
P*™^0" *°

AFFIRMED

Case: 20-2283

Document: 19

Filed: 03/17/2021

Pages: 1

7
mmteh States Court of AppeaIs
For the Seventh Circuit
Chicago, Illinois 60604
Submitted March 17,2021
Decided March 17, 2021
Before
WILLIAM J. BAUER, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 20-2283
BARRY J. SMITH, SR.,
Plain tiff-Appellan t,

Appeal from the United States District
Court for the Eastern District of Wisconsin.

v.

No. 18-cv-988-pp

UNITED STATES CONGRESS and
WISCONSIN LEGISLATURE,
Defendants-Appellees.

Pamela Pepper,

Chief Judge.

ORDER
On March 16, 2021, in Smith v. United States Congress, et al., Nos. 20-2987 and
20-2988, this court affirmed the district court's dismissal of Barry Smith's suit against
the United States Congress and the Wisconsin Legislature because, among other
reasons, these appellees are not proper defendants in a civil-rights suit. In the current
appeal, No. 20-2283, Smith challenges the district court's dismissal of a similar civilrights suit against the same appellees. We summarily AFFIRM the district court's
dismissal of this suit because, again, the appellees are not proper defendants in this suit.
The sanction that we imposed in Nos. 20-2987 and 20-2988 remains in effect.

Case: 20-2283

Document: 21

Filed: 04/13/2021

Pages: 1

Mtttteir JStafes (Knurl of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
April 13,2021
Before
WILLIAM J. BAUER, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

Nos. 20-2283, 20-2987 & 20-2988
BARRY J. SMITH, SR.,
Plain tijf-Appellan t,
v.
UNITED STATES CONGRESS and
WISCONSIN LEGISLATURE,
Defendants-Appellees.

Appeals from the United States District
Court for the Eastern District of
Wisconsin.
Nos. 2:18-cv-988, 2:19-cv-671 &
2:19-cv-1001
Pamela Pepper,

Chief Judge.
ORDER
Plaintiff-appellant filed a petition for rehearing and rehearing en banc on March
29, 2021. No judge in regular active service has requested a vote on the petition for
rehearing en banc, and all members of the original panel have voted to deny panel
rehearing. The petition for rehearing and rehearing en banc is therefore DENIED.

c-mluoii

/

pjum^r /

Li

' ‘ 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

2 ii

t

3 '!i! UNITED STATES OF AMERICA.
if

4 Ii!

5

/?

Plaintiff,

Case No. 90-Cr£T. 18, U.S.C. § 115(a)(1)(A)]

-v-

, 6
7

i
!
!

BARRY JOE SMITH,

I

0^3

Defendant.

8 I;

I

COUNT ONE

9 ii

!
I
;
!
i
!

‘

r

/

!
10

•

!

11 i:
:s
12 Ii
I
13 i
j
14 «
jj
15 I
j;
16

THE GRAND JURY CHARGES:
•

That on or about December 29, 1989, in the City .of Milwaukee,
In the State and Eastern District of Wisconsin,
J

BARRY JOE SMITH,

i

did threaten to assault and murder a United States judge, in that
BARRY JOE SMITH, did threaten to assault and murder United States

i

District Judge John W. Reynolds with a sword.
In

17 i

;

violation

of

Title

18,

United

j
I

States

Code,

Section

4

I

115(a)(1)((A).

t

18

!

19

kl5/J4JSs>(—

*
:*

21

‘
Date

22 it:

§3 •.
24

/-/6 - Sfo

4

't

JOHN E. FRYATT
United States

\
t

*;•
i

•«

4?

/>;*

%

.

'*0r ?■

-<

'

£

«.•
*

*.
•/

■/'

, \

■2

^ «

«(■*

T

. % .

!

*S''

*■

'

*

Jk

*

*
i

r l

(0
A

I V.

FORM OBO-ni)
*----- :---------MAH-*)—

i

4

25

£..*

-

Ii

Foreperson

20'!I r

*

i,

V

■

* **
^* •

f

iJ

V
4T

1

2

UNITED STATES DISTRICT COURT

3

BASTERN DISTRICT OF WISCONSIN

4

UNITED STATES OF AMERICA,

5

Plaintiff,

Case No. 90-CR-019

BARRY JOE SMITH,

6
7

GOVERNMENT'S RESPONSE TO
DEFENDANT'S PRE—T RIAL
MOTIONS TO- Distal! S AND FOR

Defendant.

bail review

8
9

BACKGROUND

10

On December 29, 1989, the defendant
was arrested on the

basis of a criminal complaint
charging him with a violation of
Title 18 u.s.c. 5115(a)(1)(B).

11
12
13
14

15
16
17
18

19
20

At his initial appearance held that
day before United
States Magistrate Robert L. Bittner, the
defendant advised the court that he wished to
proceed pro se in
this matter. The Court
nevertheless appointed Charles w.
Jones,
Esq. to act as stand-by counsel for the
defendant. The defendant
also advised the court that he had
previously received Psychiatric
treatment for manic-depression from a Dr.
Kelly Bailiet, who had
prescribed medication for him.
The defendant, however, stated that
he had not taken his medication since

approximately October of v*

1989.

21

At a preliminary hearing

22

J

on January 3, 1990, the court

*

23 j found the existence of
!*V\

« 24

S'

probable cause to believe that the defendant
bad committed the offense^charged in the criminal complaint.-'

25 ■ <
4 " <.

f 26-

^

* MS

‘•mo

V

*'
A

V

*

" . - ft; \*-'
—r-—

*4

}A

■*

■

roRMoim.fM >'

y .
.

i*
o c

r* '

-

4

*

V [.

•V

; *p

>

f

U.S. v. Smith, 928 F.2d 407 (1991)
1991 WL 36269

Hie term of supervised release was later reduced to three
years. In this appeal, Smith challenges the conviction and
the calculation of the sentence.

928 F.2d 407
Unpublished Disposition
NOTICE: THIS IS AN UNPUBLISHED OPINION.
(The Court's decision is referenced in a “Table of
Decisions Without Reported Opinions” appearing
in the Federal Reporter. Use FI CTA7 Rule 53 for
rules regarding the citation of unpublished opinions.)
United States Court ofAppeals, Seventh Circuit.

The testimony at trial, taken in the light most favorable
to the prosecution, showed that at 2:20 am. on December
29, 1989, Arthur Roby, a Security Complaint Assistant
for the Milwaukee office of the FBI, received a telephone
call from Barry Joe Smith. Smith threatened to kill Judge
Reynolds in the morning at the courthouse with a 16th
century Jewish sword. Smith said that he was angry with
Judge Reynolds for dismissinghis suit and he provided his
address. Smith also indicated that he was calling to warn
the FBI so that it could stop hfm

UNITED STATES ofAmerica, Plaintiff-Appellee,
v.
Barty Joe SMITH, Defendant-Appellant.
No. 90-2368.

Roby contacted his supervisor and then the United States
Marshals and the Milwaukee Police Department, The
police set up surveillance of Smith's home, and at around
5:20 in the morning investigator John Kuchenreuther
of the Marshals Service met with the police outside
Smith's residence. Kuchenreuther and at least one police
officer knocked on the door. Smith's wife, Dorhsa Smith,
answered the knock and said that he was not from* She
refused to let them in without a warrant and went
upstairs. Kuchenreuther knocked again, and she returned
to the door. Kuchenreuther said that if she did not let
them in he would kick the door down. She again retreated
upstairs for a minute or two, and upon
she
let them into the house. They found Smith on the bed
with a baby and with a sword next to him. They seized
the sword and arrested Smith. Smith later confessed to
Kuchenreuther and an FBI agent that he had called Roby
as well as the news media and told them his intention
regarding Judge Reynolds.

Submitted Feb. 22,1991 *
Decided March 18,1991.
After preliminary examination of the hnVfe, the
court notified the parties that it had tentatively
concluded that oral argument would not be helpful
to the court. The notice provided that any party
might file a “Statement as to Need of Oral
Argument” See Fed.RApp.P. 34(a), Circuit Rule
34(f). No such statement has been filed, so the
appeal is submitted for decision on the briefe and
record.
Appeal from the United States District Court for
the Eastern District of Wisconsin, No. 90-CR-19, J.P.
Stadtmueller, Judge.
Synopsis
E.D.Wis.

Smith1 contends that the evidence presented at trial was
AFFIRMED.

Before CUDAHY, EASTERBROOK, and RIPPLE,
Circuit Judges.

Order
*1 A jury convicted Barry Joe Smith of threatening the
life of a federal judge in violation of 18 U.S.C, § 115(a)(1)
(B), and Smith was sentenced to a twelve-month' term of
imprisonment and a four-year term of supervised release.

insufficient to support the jury's verdict. Section 115(a)
(1)(B) makes it a crime to “threaten [ ] to assault... or
murder a United States judge ... with intent to retaliate
against such ... judge ... on account of the performance
of official duties....” A threat violates this law only if it is
a true threat” rather than idle talk or part of a political
protect Watts v. United States, 394 U.S. 705,708 (1969).
To establish a “true threat” the prosecution must
demonstrate that the defendant made a statement “in a
context or under such drcumstaaces-wher-em-a-i'easonable-----person wonld foresee that the statement would be
interpreted [by the recipient]... as a serious expression of

W6STIAW © 2018 Thomson Reuters. No claim^rig^l

Government Works.

1

U-S. v. Smith, 928 F.2d 407 (1991)
19&TWl 36289 ~----——-—

"*intention to “ffict bodily halm u
pon or take the life of
the President.”
United States
ama
*

focus is on whether the circumstances

surrounding the

806 F.2d 703, 707 (7th

of a

“■—“ T

~ <* iisrissr^»«*
»

F.2d 383,391 (5th CSr.1989).

Kaymer, 876

*2 The

the
—- outcomeonofofthe

ague and confused the jury. The inrv in«+«< +•

==£=£==»£

.,.,.
cases. Those instructions eliminated
de^S Aet^T700^011- Smithasse*s that he was

Smith's argument is that the district
court should have
suppressed the sword seized
at
his
house
because the
discovery was

w.Brforette“zrsi«^
s s£rTJT’d aat Doissa snwi “»»>m^
££££^ *" * “ *e consent

was never aware of
the threat. 908 F.2d at 178-79.
was communicated to the Secret Sr^Sat hobT^

: ==rrr*s~-

- JZSZT 1,88 f“*“' **

government asserts
that the warrantless entry
was
justified
by exigent
circumstances.
The argument that circumstan
ces were exigent is weak.

o«W Sn
indictment was dismissed hv

5 ™e

Ssr~^S5=

was.

^3££S£k

*=£
westww

f tte efa"“‘» ■*'«»

© 2018 Thomson Reuters.

United States v. iforiw, 892 F.2d 649,651 (7th Cir 1 oom

No claim^g^rj^gjGovernment Works.
2

U.S. v. Smith, 928 F.2d 407 (1991)
199 •! WL 36269

sSSSSSSS
aSSSSSS? Srr*toted
£SS5=S
* *— *•H, or evS

increase by three levels.

. ge

at his statements regarding Judge

According to Application Note 1 tw

r--'=.iS£-== =^=s"““~“

•SSSSSSS:
S£E=s3r*“r=
^-r^SExsss: cssssrsr.-™™
tothathewonMattempttoidflthePrcsident We held
§ AI.2 applicable, reasoning that the victim in that case
was the President Moreover, we held that § 3AI 2 does
not include any requirement that the victim be banned or
even be aware of the threat. 908 F.2d at 179
Smith additionally argues that the district court erred
in failing to reduce his offense level for
acceptance
of responsibility under U.S.S.G. § 3E1.1. Whether the
defendant has accepted responsibility is a question of

AFFIRMED.
1

Tha^reTLS ““T* “ t0 ffle a^° * brief
bnef 1fomenting his lawyer's briefs. We
attnhute arguments raised in any of those briefs to

All Citations
928 R2d 407 (Table), 1991 WL 36269

• End of Document
©2018 Thomson Reuters. No claim t0 original U.S. Govern

meniWorico.

~

!

Additional material
from this filing is
available in the
Clerk's Office.

